No. 19In the

Supreme Court of the United States
TIMOTHY C. HARRY; KAREN C. HARRY,
Petitioners,
v.
AMERICAN BROKERS CONDUIT; APEX MORTGAGE
SERVICES; FIDELITY NATIONAL TITLE GROUP,
INC.; AMERICAN HOME MORTGAGE SERVICING,
INC.; DEUTSCHE BANK NATIONAL TRUST
COMPANY, as Trustee for American Home
Mortgage Assets Trust 2007-2 MortgageBacked Pass-Through Certificates,
Series 2007-2; HOMEWARD RESIDENTIAL,
INC.; MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, INC.; OCWEN LOAN SERVICING, LLC;
FIDELITY NATIONAL FINANCIAL, INC.;
FIDELITY NATIONAL TITLE COMPANY,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the First Circuit

PETITION FOR A WRIT OF CERTIORARI
Tina L. Sherwood
Counsel of Record
Law Office of Tina L. Sherwood
19C Governors Way
Milford, MA 01757
(617) 930-3533
tina@sherwoodlawma.com
Counsel for Petitioners
289642

i
QUESTION PRESENTED
Whether the First Circuit Court of Appeals was
correct in denying Petitioners’ Fifth and Fourteenth
Amendments rights to Substantive and Procedural
Due Process before the taking of real property by
upholding the District Court’s opinion ruling a fictitious,
nonregistered, unlicensed name can enter into a lending
transaction, ignore the Defendants’ admitted business
practices of fabricating new lending documents and
forging Petitioners’ signatures in order to collect on the
newly fabricated note and mortgage and then foreclose on
the property by not rendering an opinion and affirming
the erroneous decision?

ii
PARTIES TO THE PROCEEDING
The parties below are listed in the caption.

iii
CORPORATE DISCLOSURE STATEMENT
Case: 18-1829 Document: 00117391505 Date Filed:
01/22/2019 Entry ID: 6227047 Defendant-Appellee,
Deutsche Bank National Trust Company as Trustee for
American Home Mortgage Assets Trust 2007-2 MortgageBacked Pass-Certificates, Series 2007-2 is a New York
State-chartered banking corporation, and is a whollyowned subsidiary of Deutsche Bank Trust Corporation,
which is a wholly-owned subsidiary of Deutsche Bank AG,
a banking corporation organized under the laws of the
Federal Republic of Germany. No publicly held company
owns 10% or more of Deutsche Bank AG’s stock.
D e fe n d a nt -A p p e l l e e , Mo r t g a g e El e c t r on i c
Registration Systems, Inc. is a wholly-owned subsidiary
of MERSCORP Holdings, Inc. MERSCORP Holdings,
Inc. is owned by Maroon Holding, LLC. Intercontinental
Exchange, Inc. is the only publicly-held corporation that
individually owns 10% or more of Maroon Holding, LLC.
Defendant-Appellee, American Home Mortgage
Servicing, Inc. is a majority-owned subsidiary of entities
affiliated with WL Ross & Co. LLC, which in turn is a
wholly-owned subsidiary of Invesco Private Capital, Inc.,
a wholly owned subsidiary of Invesco PLC, which is a
publicly-owned corporation whose stock trades under the
symbol IVZ on the New York stock exchange.
Defendant-Appellee, Homeward Residential, Inc. is a
non-government corporation formed under the laws of the
State of Delaware, which is a wholly owned subsidiary of
Homeward Residential Holdings, Inc., which is a wholly
owned subsidiary of Ocwen Financial Corporation, a
publicly traded corporation.

iv
Defendant-Appellee, Ocwen Loan Servicing, LLC
is a non-governmental limited liability company, whose
sole member is Ocwen Financial Corporation, a publicly
traded corporation.
Case: 18-1829 Document: 00117391556 Date Filed:
01/22/2019 Entry ID: 6227071 Pursuant to Fed. R. App.
P. 26.1, Defendants - Appellees Fidelity Title Group,
Inc., Fidelity National Financial, Inc., Fidelity National
Title Insurance Company (incorrectly named as Fidelity
National Title Company), disclose the following:
Fidelity National Title Insurance Company is a
subsidiary of Fidelity National Title Group, Inc., which is
a subsidiary of FNTG Holdings, LLC. Fidelity National
Financial, Inc. is the sole member of FNTG Holdings,
LLC. Fidelity National Financial, Inc. is a public company
traded on the New York Stock Exchange under the trading
symbol FNF. It does not have a parent corporation and no
publicly held corporation owns 10% or more of its stock.

v
STATEMENT OF RELATED CASES
The electronic order issued by the United States Court
of Appeals for the First Circuit in Harry v. American
Brokers Conduit, et. al., C. A. No. 18-1829 did not issue
an opinion when it issued an electronic order affirming the
Federal District Court, Boston Division, Opinion dated
March 8, 2019.
The Memorandum and Order of the Federal District
Court of Massachusetts, Boston Division, in Harry v.
American Brokers Conduit, et. al. Docket No. 1:16-cv10895 granting Summary Judgment to Defendant Ocwen
Loan Servicing dated August 16, 2018.
The Memorandum and Order of the Federal District
Court of Massachusetts, Boston Division, in Harry v.
American Brokers Conduit, et. al. Docket No. 1:16-cv10895 dismissing Plaintiffs case against all Defendants
except Ocwen Loan Servicing, LLC dated January 12,
2017.
The Memorandum and Order of the Federal District
Court of Massachusetts, Boston Division in Harry v.
American Brokers Conduit, et. al. Docket No. 1:16cv-10895 dismissing Plaintiffs’ claim of default against
American Brokers Conduit and Apex Mortgage Services
dated August 24, 2018.

vi
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
STATEMENT OF RELATED CASES . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . .  ix
TABLE OF CITATIONS  . . . . . . . . . . . . . . . . . . . . . . . . . x
CITATIONS OF OPINIONS AND ORDERS . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 7
A. Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 7
B. Procedural History  . . . . . . . . . . . . . . . . . . . . . . . 11
REASONS FOR GRANTING THE PETITION . . . . 15

vii
Table of Contents
Page
I.

REVIEW IS WARRANTED WHERE
THE FIFTH A ND FOURTEENTH
A MENDMENTS TO THE UNITED
STATES CONSTITUTION PROTECTS
A N I N DI V I DUA L’ S R I G H T T O
PROCEDURAL AND SUBSTANTIVE
DUE PROCESS AND TO BE HEARD ON
THE MERITS OF THEIR OWN CASE . . . . . 16
A. Procedural Due Process . . . . . . . . . . . . . . . 16
B. Substantive Due Process . . . . . . . . . . . . . . . 18
1.

State Law . . . . . . . . . . . . . . . . . . . . . . . . 18

2. Void Contract . . . . . . . . . . . . . . . . . . . . . 19
3.

MGL 255E and 255F (App. ____)  . . . 22

II. REVIEW IS WARRANTED WHERE
A MOTION TO DISMISS MAY ONLY
BE EN T ER ED I F T H ER E A R E
NO ISSUES OF MATERIAL FACT . . . . . . . . 23
III. REVIEW IS WARRANTED WHERE
FA BRICAT ION OF DOCU M EN T S
IS A V IOL AT ION OF T H E FA IR
DEBT COLLECTION PR ACTICES
ACT (“ FDCPA”); THE IS SUA NCE
OF S U M M A RY J U D G M EN T ON
THIS COUNT WAS IN ERROR . . . . . . . . . . . .26

viii
Table of Contents
Page
A. Summa r y Judg ment Granted to
Defendant Ocwen in Error. . . . . . . . . . . . . . 26
B. Defendants violated the FDCPA,
M.G.L. 93A  . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

ix
TABLE OF APPENDICES
Page
Appendix A — JUDGMENT of the United
States Court of Appeals For the
First Circuit, FILED March 8, 2019 . . . . . . 1a
Appendix b — ORDER of the UNITED
STATES DISTRICT COURT for the
DI S T R IC T O F M A S S A C H U S E T T S ,
	filed august 24, 2018 . . . . . . . . . . . . . . . . . . . . . 3a
A PPENDI X C — MEMOR A NDUM A ND
OR DER OF T H E U N I T ED S TAT E S
DISTRICT COURT FOR THE DISTRICT
OF M A SSACHUSETTS, FILED
AUGUST 16, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6a
A PPENDI X D — MEMOR A NDUM A ND
OR DER OF T H E U N I T ED S TAT E S
DISTRICT COURT FOR THE DISTRICT
OF M A SSACHUSETTS, FILED
JANUARY 12, 2017 . . . . . . . . . . . . . . . . . . . . . . . . . . 20a
APPENDIX E — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
A PPEALS FOR THE FIRST CIRCUIT,
FILED APRIL 25, 2019 . . . . . . . . . . . . . . . . . . . . . . 56a
Appendix f — Relevant Statutory
Provisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58a

x
TABLE OF CITED AUTHORITIES
Page
Massachusetts Cases
Blank v. Chelmsford Ob/Gyn, P.C.,
420 Mass. 404 (1995) . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Iannacchino v. Ford Motor Co.,
451 Mass. 623 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Federal Cases
Ashcrof v. Iqbal,
556 U.S. 662 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Alexander v. United States,
509 U.S. 544 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Boyko v. Am. Intern Group, Inc.,
2009 WL 5194431 (D.N.J.) (Dec. 23, 2009)  . . . . . . . 26
California Bank v. Kennedy,
167 US 362 (1897)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Carey v. Piphus,
435 U.S. 247 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

xi
Cited Authorities
Page
Chattanooga National Building & Loan
Association v. Denson,
189 U.S. 408 (1902)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Celotex Corp. v. Catrett,
477 U.S. 317 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . 26, 27
Central Transp. Co. v. Pullman’s Palace Car Co.,
139 U.S. 24 (1891)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Connolly v. Union Sewer Pipe Co.,
184 U.S. 540 (1902) . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Continental Wall Paper Co. v.
Louis Voight & Sons Co.,
212 U.S. 227 (1909)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Curran v. Cousins,
509 F.3d 36 (1st Cir. 2007) . . . . . . . . . . . . . . . . . . . . . 24
Daily v. Garrett (In re Garrett),
2014 Bankr. LEXIS 3087, 2014 WL 3724984 . . . . . . 19
Erie R.R. v. Tompkins,
304 U.S. 64 (1938) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Esso Standard Oil Co. (P.R.) v. Lopez Freytes,
457 F. Supp. 2d 156 (2006) . . . . . . . . . . . . . . . . . . . . .  17
Fritts v. Palmer,
132 U.S. 282 (1898) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

xii
Cited Authorities
Page
Harry v. Countrywide Home Loans, Inc.,
902 F.3d 16 (1st Cir. 2018)  . . . . . . . . . . . . . . . . . 1, 6, 18
Hulin v. Fibreboard Corp.,
178 F.3d 316 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
In re Carney,
258 F.3d 415 (5th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 27
Interstate Amusement Co. v. Albert,
239 U.S. 560 (1916)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Jacksonville M., P.R. & N. Co. v. Hooper,
160 U.S. 514 (1896)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Langford v. U.S. Dep’t of Treasury,
645 F. Supp. 2d 381 (2009) . . . . . . . . . . . . . . . . . . . . .  17
Leone v. Ashwood Fin., Inc.,
257 F.R.D. 343 (E.D.N.Y. 2009) . . . . . . . . . . . . . . . . . 26
Link v. Wabash R. Co.,
370 U.S. 626 (1962)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Louisville, N. A. & C. R. Co. v.
Louisville Trust Co.,
174 U.S. 552 (1899)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Marshall v. Jerrico,
446 U.S. 238 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

xiii
Cited Authorities
Page
Midland Funding, LLC v. Johnson,
137 S. Ct. 1407 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . 27
Munday v. Wisconsin Trust Co.,
252 U.S. 499 (1920)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Ruth v. Triumph P’ships,
577 F.3d 790 (7th Cir. 2009) . . . . . . . . . . . . . . . . . . . . 26
Topalian v. Ehrman,
954 F.2d 1125 (5th Cir. 1992) . . . . . . . . . . . . . . . . . . . 27
Traut v. Quantum Servicing Corp.,
2016 U.S. Dist. LEXIS 104180  . . . . . . . . . . . . . . . . . 24
United States v. Crosby,
7 Cranch 115 (1812) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Waters v. J.C. Christensen & Assocs.,
2011 U.S. Dist. LEXIS 41075  . . . . . . . . . . . . . . . . . . 27
Federal Statutes
Fifth Amendment to the United States
Constitution . . . . . . . . . . . . . . . . . . . . . . . . . 2, 16, 18, 22
Fourteenth Amendment to the United States
Constitution . . . . . . . . . . . . . . . . . . . . . . . . . 2, 16, 18, 22
12 U.S.C. § 2601  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

xiv
Cited Authorities
Page
12 U.S.C. § 2605(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
15 U.S.C. § 1692  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 27
15 U.S.C. § 1692e  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
15 U.S.C. § 1692e(10)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
15 U.S.C. § 1692f . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
18 U.S.C. § 96  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
18 U.S.C. § 1014 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 1963  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. §§ 1961-1965 . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
28 U.S.C. § 2101(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
State Statues
M.G.L. Chapter 110 § 5  . . . . . . . . . . . . . . . . . . . . . . 3, 4, 21
M.G.L. Chapter 93A . . . . . . . . . . . . . . . . . . . . . . . . 3, 27, 28
M.G.L. Chapter 93A, § 2(a) . . . . . . . . . . . . . . . . . . . . . . . 28

xv
Cited Authorities
Page
M.G.L. Chapter 255E  . . . . . . . . . . . . . . . . . . . . 3, 4, 22, 24
M.G.L. Chapter 255F . . . . . . . . . . . . . . . . . . . . . 3, 4, 22, 24
M.G.L. Chapter 266, § 35A . . . . . . . . . . . . . . . . . . . . . . . 12
M.G.L. Chapter 266, § 93A . . . . . . . . . . . . . . . . . . . . . . . 12
Federal Rules of Civil Procedure
Fed. R. Civ. P. 12(A)(1)(a)(i) . . . . . . . . . . . . . . . . . . . . . . . 11
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Fed. R. Civ. P. 56(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

1
CITATIONS OF OPINIONS AND ORDERS
The electronic order issued by the United States Court
of Appeals for the First Circuit in Harry v. American
Brokers Conduit, et. al., C. A. No. 18-1829 did not issue
an opinion when it issued an electronic order affirming
the Federal District Court, Boston Division, Opinion.
The United States Court of Appeals for the First Circuit
based its ruling on another case Harry v. Countrywide
Home Loans Inc., 902 F.3d 16(1st Cir. 2018) which has no
bearing on this case. The Electronic Order is set forth in
the Appendix hereto. (App. 1a).
The Memorandum and Order of the Federal District
Court of Massachusetts, Boston Division, in Harry v.
American Brokers Conduit, et. al. Docket No. 1:16-cv10895 granting Summary Judgment to Defendant Ocwen
Loan Servicing is set forth in the Appendix hereto. (App.
6a).
The Memorandum and Order of the Federal District
Court of Massachusetts, Boston Division, in Harry v.
American Brokers Conduit, et. al. Docket No. 1:16-cv10895 dismissing Plaintiffs case against all Defendants
except Ocwen Loan Servicing, LLC is set forth in the
Appendix hereto. (App. 20a).
The Memorandum and Order of the Federal District
Court of Massachusetts, Boston Division in Harry v.
American Brokers Conduit, et. al. Docket No. 1:16cv-10895 dismissing Plaintiffs’ claim of default against
American Brokers Conduit and Apex Mortgage Services
is set forth in the Appendix hereto. (App 3a).

2
STATEMENT OF JURISDICTION
The First Circuit’s electronic order was rendered
on March 8, 2019 a mere three days after Plaintiffs’
submitted their reply brief. Plaintiffs filed a Petition for
Rehearing En Banc on March 22, 2019. The First Circuit
denied the Petition on April 25, 2019.
This Petition for Writ of Certiorari is filed within
ninety (90) days after April 25, 2019 in accordance with
28 U.S.C. Section 2101(c).
This Court’s jurisdiction is invoked under 28 U.S.C.
Section 1254 (1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Fifth Amendment to the United States Constitution
No person …shall be deprived of life, liberty, or property,
without due process of law….
Fourteenth Amendment
to the United States Constitution
Section 1: [N]or shall any State deprive any person of life,
liberty, or property, without due process of law.
15 U.S.C. 1692 Fair Debt Collection Practices Act
Please see Appendix page 58

3
MASSACHUSETTS GENERAL LAWS Chapter 255E
Please see Appendix page 60a
MASSACHUSETTS GENERAL LAWS Chapter 255F
Please see Appendix page 61a
MASSACHUSETTS GENERAL LAWS Chapter 110
Section 5
Section 5. Any person conducting business in the
commonwealth under any title other than the real name of
the person conducting the business, whether individually
or as a partnership, shall file in the office of the clerk of
every city or town where an office of any such person
or partnership may be situated a certificate stating the
full name and residence of each person conducting such
business, the place, including street and number, where,
and the title under which, it is conducted, and pay the fee
as provided by clause (20) of section thirty-four of chapter
two hundred and sixty-two. Such certificate shall be
executed under oath by each person whose name appears
therein as conducting such business and shall be signed
by each such person in the presence of the city or town
clerk or a person designated by him or in the presence of
a person authorized to take oaths.
MASSACHUSETTS GENERAL LAWS Chapter 93A
Section 2. (a) Unfair methods of competition and unfair
or deceptive acts or practices in the conduct of any trade
or commerce are hereby declared unlawful.

4
INTRODUCTION
The Petitioners, Timothy C. Harry and Karen C.
Harry are victims of the subprime mortgage lending
financial crisis that gripped the nation in the aughts. The
Harry’s were solicited to refinance their property in 2006
by Apex Mortgage Servicers. The lender on the note,
American Brokers Conduit, (“ABC”) is a fictitious trade
name that was not registered anywhere in Massachusetts
pursuant to M.G.L. 110 Section 5, did not apply for nor
obtain a license to lend money from the Massachusetts
Banking Commission pursuant to M.G.L. 255E and M.G.L.
255F. Fidelity Title Group filed the alleged mortgage
with the Barnstable Registry of Deeds listing Mortgage
Electronic Registration System (MERS) as nominee for
the lender. MERS used the member number of American
Home Mortgage Holding, Inc. who was not the lender on
the note or mortgage.
Defendant Fidelity National Financial, Inc. had a
subsidiary, DOCX that was in the business of fabricating
lending documents for A merican Home Mortgage
Servicing, Inc. (“AHMSI”). The Fidelity companies were
involved with creating the original void note and mortgage
and Petitioners believe DOCX was involved with the
fabrication and forgery of signatures on the substituted
void lending documents.
Over the period of the loan, the Petitioners believed
the alleged loan they received was a predatory negative
amortization loan and stopped paying on the mortgage.
Beginning in 2009 and continuing through January
2016, Deutsche Bank Trust Company (“Deutsche Bank”)
and Ocwen Loan Servicing, LLC (“Ocwen”) began five
attempts to foreclose on the property.

5
On March 18, 2016, Plaintiffs brought suit in
Barnstable County Superior Court seeking to have the
alleged loan declared void because the lender was an
unregistered, unlicensed, entity lacking the legal capacity
to enter into a lending contract, to have the mortgage
discharged, to receive quiet title to their property and to
seek damages.1
The district court dismissed Petitioner’s complaint as
against all defendants except Ocwen pursuant to Count
IV under the Fair Debt Collection Practices Act (FDCPA)
stating that Petitioner’s complaint was time barred under
the statute of limitations and did not state a claim upon
which relief could be granted.
During discovery, Petitioners found that the Ocwen
business work product, known as the “Harry Comment
Log”, states “the signature on the loan, in their collateral
file, which is held by defendant Deutsche Bank, does not
match the signature on the letter” that the Petitioner’s
sent to Ocwen asking Ocwen to deal solely with their
Attorney. During Ocwen’s deposition, they admitted that
there were two executed mortgages each with a different
recording entity listed; the fabricated one Ocwen received
from Deutsche Bank that was stamped a “True and
1. Because the First Circuit failed to render an opinion and
fully substantiated the District Court’s opinion, Petitioners refer
to the District Court’s ruling. In that ruling, the District Court
makes a comment about the damages requested. The damages are
math under RICO regarding the fraudulent use of the mail/wire/
bank/fictitious name fraud as set out by statutes. 18 USC 1963,
Alexander v. United States, 509 U.S. 544 (1993). Plaintiffs sued
for the maximum amount that has been allowed for each offense
Plaintiffs’ incurred from Defendants, which Plaintiffs lay out in
excruciating detail in their Amended Complaint. [A51 et. seq.].

6
Certified Copy” of the original, which Ocwen and Deutsche
Bank relied on to service the alleged loan and the copy of
the one filed with the Barnstable Registry of Deeds. All of
Petitioner’s evidence and the Defendant’s admissions were
not even considered by the district court nor reviewed by
the First Circuit.
The First Circuit affirmed the district court’s granting
of Summary Judgment to Ocwen and Dismissal of the case
without issuing an opinion on the merits of this case.
Instead the First Circuit relied upon another opinion in
Harry v. Countrywide Home Loans, Inc. 902 F.3d 16 (1st
Cir. 2018) which is a different case with different plaintiffs,
different defendants and a different fact pattern. Further,
in Harry v. Countrywide Home Loans, Inc., Countrywide
admitted twice in its response brief that it did not have
a license to lend money in Massachusetts and the First
Circuit ignored that judicial admission in its ruling.
The First Circuit ignored all evidence and admissions
and found defendant Ocwen did not violate the FDCPA
when their practice was to recreate lending documents
and forge signatures for business purposes.
This Court’s intervention is urgently needed. As it
currently stands, the First Circuit is and does ignore this
Court’ decisions, that an unregistered, unlicensed entity
can enter into a contract. The First Circuit’s ruling also
permits corporations to fabricate and forge individuals’
signature on whatever documents are needed to meet
the corporation’s business purpose. Under any other
fact pattern, fabrication of documents and forgery of
signatures is considered a felony.

7
The First Circuit ruling is so unconscionable and
completely disrespects the Constitution of the United
States and all statutes promulgated thereunder, the
Statutes of Massachusetts that this Court has stated
must be upheld in Federal Court as well as all Supreme
Court rulings. Petitioners are not the only homeowners
being swept under the rug by the crimes being committed
by defendants. ABC wrote loans across the country. The
Supreme Court must intervene to not only protect the
Petitioners’ rights as homeowners, but direct the federal
district and circuit courts to uphold the state and federal
laws when it comes to foreclosure of United States citizens’
homes.
STATEMENT OF THE CASE
A. Factual Background
In late November 2006 Plaintiffs were contacted by
APEX Mortgage Servicers, Inc. (“APEX”) regarding
refinancing their property. [A51, Para 15-17]. 2
On December 13, 2006, Plaintiffs formally applied
with APEX for a Uniform Residential Loan to refinance
their current mortgage. Apex, not the Plaintiffs, filled
out application and input false financial information. [Id.
at Para 16-24]
On December 13, 2006, APEX faxed a Good Faith
Estimate (“GFE”) and a Truth-In-Lending Disclosure
2. The facts are drawn from Petitioner’s Amended Complaint
and the opinions below. Page numbers are to the appendix
submitted to the First Circuit Court of Appeals.

8
(“TIL”) prepared on November 29, 2006. The information
on the GFE, TIL and loan application are all different.
[Id. At paragraphs 25-35].
On December 21, 2006, Plaintiffs received a one page
HUD-1A Settlement Statement prepared by a non-legal
entity Fidelity Title Company stating that another nonlegal entity American Brokers Conduit (“Hereinafter
ABC”) was the lender. The HUD-1A was fraught with
inaccuracies. [Id. at para 36].
Chicago Title Insurance Company, a subsidiary of
Fidelity National Title Group wrote a commitment on
November 20, 2006 twelve days prior to the alleged loan
application and a month prior to the alleged closing date
stating a Loan Policy in the amount of $450,000 when the
alleged loan application and GFE stated a loan amount of
$445,500. [Id. at para 42-47].
Fidelity Title Group filed the alleged mortgage
with the Barnstable Registry of Deeds listing MERS
as nominee for ABC using a MERS MIN (Member
Identification Number) for American Home Mortgage
Holding, Inc. [Id. at para 59-65].
On May 1, 2009, MERS as nominee for ABC assigned
the alleged mortgage to Deutsche Bank National Trust
Company, as Trustee for American Home Mortgage
Assets Trust 2007-02, Mortgage-Backed Pass-Through
Certificates, Series 2007-02 (“Deutsche Bank”). This
assignment of the alleged mortgage (“AOM”) is void
because the lender did not exist, therefore could not
nominate MERS as mortgagee, MERS had nothing to
assign, the MERS MIN on the alleged mortgage is for

9
another entity, Trust 2007-02 was closed according to the
Trusts Pooling and Servicing Agreement, the Trust is
governed by New York law, the assignment was signed by
six illegal known robo-signers, Ron Meharg who prepared
the assignment, Tywanna Thomas As Asst. Secretary
for MERS, Dawn Williams as Witness for MERS, Korell
Harp as VP for MERS (who was in an Oklahoma prison
at the time of the execution of the assignment), Christina
Huang as Witness for MERS and Britany Snow as the
Notary Public. [Id. at Para 71-81].
On July 7, 2011 MERS executed a second AOM to
Deutsche Bank as Trustee of the same Trust which stated
ABC “is organized and existing under the laws of the
United States of America”, stated that the assignment is
a “Confirmatory Assignment” in care of American Home
Mortgage Servicing, but using an address for Ocwen
Loan Servicing, and this assignment was also executed
by known illegal robo-signer April King and notarized by
Tammy M. Hansen who does not have a notary commission
number in Florida where the document was allegedly
executed. [Id. at Para. 82-87].
American Home Mortgage Servicing, Inc. (“AHMSI”)
serviced this alleged note from November 1, 2008 through
June 5, 2012 when they changed their name to Homeward
Residential Inc.; Homeward was purchased by Ocwen
Financial Corporation on October 3, 2012. All three
Defendants continued to seek payment on a void note and
void mortgage. [Id. at Para 88-93]. 3
3. Ocwen Loan Servicing recently sold the mortgage
servicing rights to PHH Mortgage Services out of Mt. Laurel,
NJ and has sent their first notice of foreclosure to the Petitioners.

10
On September 28, 2009, Defendant Deutsche Bank
began the first of five attempts to foreclose on the
Plaintiffs’ property. Notice of Mortgagee’s sale was
published in The Enterprise on November 6, 2009. The
second notice was sent November 11, 2010, the third on
July 14, 2011, the fourth on February 13, 2015 and the
Fifth on January 28, 2016 [Id. at para 94-128].
Plaintiffs received correspondence from Ocwen
on July 20, 2015 that stated “they [Ocwen] would not
communicate with Plaintiffs’ counsel because Plaintiffs’
signature on the letter they sent to Ocwen requesting
that Ocwen deal with Plaintiffs’ counsel did not match
Plaintiffs’ signature on the fraudulent loan documents in
Ocwen’s possession. This is when Plaintiffs’ realized that
the alleged loan documents were fraudulent and forged.
[Id. at Para 115-120].
On July 30, 2015, Plaintiffs, in accordance with
RESPA, sent a Qualified Written Request and Validation
of Debt letter to Defendant Ocwen who sent one package
of documents on September 11, 2015 and a second set of
documents on September 30, 2015. The documents sent
do not follow the evolution of the debt and the response
is in violation of RESPA 12 U.S.C. Section 2605(e). [Id.
para 132-134].
On September 3, 2015, Defendants MERS, Deutsche
Bank, and Ocwen created and caused to be filed a third
void AOM in the Barnstable Registry of Deeds, [A304,
pg. 8].

11
B. Procedural History
On March 18, 2016, Plaintiffs filed their Verified
Complaint with the Barnstable County Superior Court.
Summons were issued and served together with the
Verified Complaint on Defendants American Brokers
Conduit (“ABC”), Apex Mortgage Services (“Apex”),
Fidelity National Inc., Fidelity National Title Group, Inc.,
Fidelity National Title Company (“Fidelity Companies”),
American Home Mortgage Servicing, Inc. (“AHMSI”),
Deutsche Bank National Trust Company, as Trustee
for American Home Mortgage Assets Trust 2007-2
Mortgage-Backed Pass- Through Certificates, Series
2007-2 (“Deutsche Bank”), Homeward Residential,
Inc. (“Homeward”), Mortgage Electronic Registration
Systems, Inc. (“MERS”), Ocwen Loan Servicing, LLC
(“Ocwen”), Korde & Associates, P.C. and Ablitt & Carlton
Law Firm on April 27, 2016, by Constable Merrill
Smallwood to each last known Registered Agent for
Service of Process, who denied service which was then
filed with the Massachusetts Secretary of State’s Office
for Service Processing.
On May 17, 2016, Defendants Deutsche Bank,
Homeward, MERS and Ocwen removed this matter
to federal district court citing Federal Question as
appropriate jurisdiction.
On June 13, 2016, Plaintiffs filed a Motion for Default
as to ABC and Apex for failing to enter an appearance in
accordance with Fed. R. Civ. P. Rule 12(A)(1)(a)(i). Also on
June 13, 2016, Plaintiffs voluntary dismissed Defendant
Korde & Associates.

12
On June 28, 2016, the court granted Plaintiffs Motion
for Entry of Default against ABC and Apex and issued a
Standing Order on Motions for default Judgment. [A37].
On July 8, 2016, Plaintiffs filed Motion for Entry of
Default Judgment against ABC and Apex. [A39, A45]. The
court denied the Motion on July 29, 2016 then vacated its
decision and did not enter another ruling until August
24, 2018.
On July 19, 2016, Plaintiffs filed their Amended
Complaint [A51] setting forth violations of racketeering
activities under 18 U.S.C. 96 Sections 1961-1965 (count
one); expiration of statutes of limitations (count two);
violations of M.G.L. Chapter 266, Section 35A, Section
93A (count three); violations of the FDCPA (count four)
violations of RESPA 12 U.S.C. Section 2601 (count five);
violations of 18 U.S.C. Section 1014 (count six); violations
of the Truth in Lending Act (count seven); slander of
title (count eight); fraud in the concealment (count nine);
rescission enforcement and quiet title (count ten) and Lack
of Standing (count eleven). Defendants AHMSI, Deutsche
Bank, Homeward, MERS and Ocwen filed their Motion
to Dismiss and Memorandum of Law on even date. [A191,
A196, A239].
On July 27, 2016, the Fidelity Companies filed their
Motion to Dismiss, Memorandum of Law and Declaration
[A246, A249, A279, A282-A298].
Plaintiffs filed their Motion in Opposition to Defendants
Fidelity Companies’ Motion to Dismiss and Memorandum
of Law on August 12, 2016. [A302, A441-A639]. Plaintiffs
filed their Motion in Opposition to AHMSI, Deutsche

13
Bank, MERS, Homeward and Ocwen’s Motion to Dismiss
and Memorandum of Law on August 22, 2016. [A300, A304,
A306, A335-A439]. Defendants Fidelity Companies filed
a Reply Motion and Memorandum of Law to Plaintiffs’
Opposition Motion and Memorandum of Law to Fidelity
Companies Motion to Dismiss and Memorandum of
Law on September 9, 2016. [A659]. Plaintiffs filed a
Memorandum of Law Opposing Defendants AHMSI,
Deutsche Bank, MERS, Homeward Motion to Dismiss
on September 13, 2016. [A665, A667]. Ocwen filed a reply
Motion and Memorandum of Law to Plaintiffs’ Opposition
to Defendants Motion to Dismiss on October 3, 2016
together with a Motion to Strike with a Memorandum of
Law to exclude certain exhibits submitted by Plaintiffs.
[A730-A747].
The court held a Motion Hearing on October 5, 2016.
Pla i nti f fs f i led thei r Opposition Motion and
Memorandum of Law to Defendants AHMSI, Deutsche
Bank, Homeward, MERS and Ocwen’s Motion to Strike
certain exhibits submitted by Plaintiffs on October 17,
2016. [A794, A796].
The court issued an Order to Show Cause that
Plaintiffs had properly served ABC and Apex. [A805].
Plaintiffs filed their response to the Order to Show Cause
on January 12, 2017 together with Exhibits and Affidavit
of the serving Constable. [A807-A832].
The court granted all Defendants Motion to Dismiss
for failure to state a claim except for Count IV as to
Ocwen for violations under the Fair Debt Collection
Practices Act with the ruling relying heavily that the

14
statute of limitations had run on all of the claims. [A834].
Plaintiffs filed a Motion for Reconsideration together
with a Memorandum of Law on February 9, 2017. [A861].
The Defendant Fidelity Companies filed an Objection to
Plaintiffs Motion for Reconsideration [A863] as well as
Defendants AHMSI, Deutsche Bank, Homeward, MERS
and Ocwen [A907, A913]. Plaintiffs filed a Reply [A923,
A928], but ultimately, the Motion for Reconsideration was
denied on April 12, 2017 without an opinion.
Plaintiffs filed an Appeal of the Motion to Dismiss
ruling [A834] on April 12, 2017, which was deemed to be
untimely by the United States Court of Appeals on June
5, 2017 [A937]. The court terminated Defendants Apex
and ABC on May 4, 2017 and vacated that ruling on May
5, 2017.
A fter protracted maneuvering by defendants,
discovery was completed and Plaintiffs filed their Motion
for Summary Judgment, Memorandum of Law with
attachments and Statement of Facts on June 29, 2018.
[Doc. A1060, A1242-A2011, A2015]. Defendants also filed
their Motion for Summary Judgment on June 29 2018.
[A1062, A1064, A1081-A1235]. Reponses were filed on
July 20, 2018 by Defendant Ocwen [A2093, A2042-A2107]
and Plaintiffs [A21-7, A2109-A2145]. Plaintiffs also filed
a Motion to Strike certain exhibits and Affidavit filed by
Defendant together with a Memorandum of Law. [A2161,
A2164]. Reply to Defendant Ocwen’s Response was filed by
Plaintiffs on July 27, 2018 [A2197, A2] and by Defendant
to Plaintiffs’ response. [A2179, A2157].
The court held a motion hearing on July 30, 2018.

15
On August 17, 2018, the court denied Plaintiffs’ Motion
to strike Defendant Ocwen’s exhibits, Denied Plaintiffs’
Motion for Summary Judgment and Granted Defendant’s
Motion for Summary Judgment and Dismissed the
Petitioner’s case against Ocwen. [A2258]. None of the
opinions ever address the fact that ABC was nothing
more than a fictitious name nor did the opinions address
the fabrication of new lending documents.
Plaintiffs then filed another Motion for Default against
ABC and Apex on August 17, 2018 [A2269, A2275], which
was denied by the court on August 24, 2018 [A2281]. Upon
which the court ordered ABC and Apex dismissed [A2284]
and ordered Judgment for the Defendant Ocwen on even
date. [A2285].
Plaintiffs filed an appeal with the First Circuit Court
of Appeals on August 29, 2018 [A2286], which was granted
on August 29, 2018. On March 5, 2019, Plaintiffs filed their
reply brief. On March 8, 2019, a mere three days later,
the First Circuit affirmed the ruling of the district court
without an opinion. Plaintiffs had submitted over 2200
pages of testimony and evidence in support of their appeal.
Plaintiffs aver that none of it was reviewed or discussed.
Plaintiffs filed a Petition for Rehearing En Banc on March
22, 2019, which First Circuit denied on April 25, 2019 again
without an opinion.
This Petition followed.
REASONS FOR GRANTING THE PETITION
The ruling by the district court, upheld by the First
Circuit, does not follow any of the rulings of this Court

16
going back almost two hundred years. The ruling flies in
the face of black letter law, the Constitution of the United
States and the Statutes promulgated thereunder as well
as the Statutes of the Commonwealth of Massachusetts.
Petitioners deserve to have their case heard on its
own merits, deserve to have a contract written by an
entity lacking the legal capacity to do so deemed void and
the fabricated duplicate note and mortgage with forged
signatures declared illegal and unenforceable.
I.

REVIEW IS WARRANTED WHERE THE FIFTH
AND FOURTEENTH AMENDMENTS TO THE
UNITED STATES CONSTITUTION PROTECTS
AN INDIVIDUAL’S RIGHT TO PROCEDURAL
AND SUBSTANTIVE DUE PROCESS AND TO
BE HEARD ON THE MERITS OF THEIR OWN
CASE.

The Fifth Amendment and Fourteenth Amendments
The Fifth Amendment states that “No person shall
….. be deprived of life, liberty or property without due
process of law.” The Fourteenth Amendment states “nor
shall any State deprive any person of life, liberty or
property without due process of law.
A.

Procedural Due Process

The United States Supreme Court has ruled a party
to a lawsuit has the fundamental right under the Fifth
and Fourteenth Amendments, of the United States
Constitution, to have their case be heard on its own merits.

17
“The Due Process Clause entitled a person to
an impartial and disinterested tribunal in both civil
and criminal cases. This requirement of neutrality in
adjudicative proceedings safeguards the two central
concerns of procedural due process, the prevention of
unjustified or mistaken deprivations and the promotion
of participation and dialogue by affected individuals in
the decision making process. The neutrality requirement
helps to guarantee that life, liberty or property will not be
taken on the basis of an erroneous or distorted conception
of the facts or the law. At the same time, it preserves
both the appearance and realty of fairness, generating
the feeling, so important to a popular government, that
justice has been done by ensuring that no person will be
deprived of his interests in the absence of a proceeding
in which he may present his case with assurance that the
arbiter is not predisposed to find against him.” Marshall
v. Jerrico 446 U.S. 238 (1980). See also Esso Standard
Oil Co. (P.R.) v. Lopez Freytes, 457 F. Supp. 2d 156 (2006)
(Company was entitled to permanent injunction where
it achieved success on the merits by showing that there
was a clear violation of its due process rights to a fair and
impartial trial where the appearance of bias was so strong
that a Constitutional tort would have been committed if
the board were to continue with the proceedings against
it.) Langford v. U.S. Dep’t of Treasury 645 F. Supp. 2d
381 (2009) citing Carey v. Piphus 435 U.S. 247, 259 (1978).
“…the very purposes for which courts were created -that is, to try cases on their merits and render judgments
in accordance with the substantial rights of the parties.”
Link v. Wabash R. Co., 370 U.S. 626, 648 (1962), Justices
Black, Douglas and Chief Justice Renquist dissenting.
“Further, this Court has repeatedly held that the case
must be decided on its own merits and nothing else.”

18
The First Circuit decided not to render a decision
in the case at bar, but to rely on another case Harry
v. Countrywide, et al. in affirming the district court’s
decision. The actions of the First Circuit violate Petitioner’s
Fifth and Fourteenth Amendment right to due process of
law before the taking of property. The property at issue
is the Petitioners’ home.
The First Circuit states “After careful consideration
of the record and the parties’ arguments, we affirm the
district court’s decisions….” (2a) Plaintiffs filed their
reply brief at 11:00 am on March 5, 2019 and by 1pm, the
panel of judges was announced, which included Justice
David Souter. On March 8, 2019, a mere three days later,
the First Circuit issued its ruling affirming the district
court’s decision.
The First Circuit failed to follow this Court’s rulings,
the Constitution of the United States and the statutes
of Massachusetts. Both the district court and the First
Circuit relied upon and cited a faulty case Harry v.
Countrywide Homes Loan Inc. to rule against Petitioners
depriving Petitioners of their federal due process right to
have their case heard on its own merits.
B. Substantive Due Process
1.

State Law

“Except in matters governed by the U.S. Constitution
or by acts of Congress, the law to be applied in any case
is the law of the state. Whether the law of the state shall
be declared by its legislature in a statute or by its highest
court in a decision is not a matter of federal concern. There

19
is no federal general common law. Congress has no power
to declare substantive rules of common law applicable in
a state, whether they be local in their nature or general,
be they commercial law or a part of the law of torts. Erie
R.R. v. Tompkins, 304 U.S. 64, 69, 1938. “And no clause
in the United States Constitution purports to confer such
a power upon the federal courts.” Hulin v. Fibreboard
Corp., 178 F.3d 316, 317 (1999). A federal court sitting
in diversity or exercising supplemental jurisdiction over
state law claims must apply state substantive law, but
a federal court applies federal rules of procedure to its
proceedings. Daily v. Garrett (In re Garrett), 2014 Bankr.
LEXIS 3087, *1, 2014 WL 3724984.
“The U.S. Constitution recognizes and preserves
the autonomy and independence of the states in their
legislative and judicial departments. Supervision over
either the legislative or the judicial action of the states
is in no case permissible except as to matters by the
Constitution specifically authorized or delegated to the
United States.” Erie, 69.
Review of this case is imperative as the First Circuit
has completely ignored Massachusetts Statutes and
authority of the Massachusetts Banking Commission, an
administrative agency created under the Massachusetts
legislature. This usurpation of power is beyond the scope
of their judicial authority.
2.

Void Contract

The alleged lending documents are void, under the
law. “The title to land can be acquired and lost only in the
manner prescribed by the law of the place where such land

20
is situated”. United States v. Crosby, 7 Cranch, 115, 116.
“Anywhere interstate commerce is not direct affected, a
state may forbid foreign corporations from doing business
or acquiring property within her borders except upon
such terms as those prescribed by the Wisconsin statute.”
Munday v. Wisconsin Trust Co., 252 U.S. 499, 1920, citing
Fritts v. Palmer, 132 U.S. 282, 288, (1898), Chattanooga
National Building & Loan Association v. Denson, 189
U.S. 408,(1902); Interstate Amusement Co. V. Albert, 239
U.S. 560, 568, (1916).
A contract not within the scope of the powers
conferred on the corporation cannot be made valid by the
assent of every one of the shareholders, nor can it by any
partial performance become the foundation of a right of
action. Central Transp. Co. v. Pullman’s Palace Car Co.,
139 U.S. 24, 38, 1891.
“A contract of a corporation, which is ultra vires in
the proper sense, that is to say, outside the object of its
creation as defined in the law of its organization, and
therefore beyond the powers conferred upon it by the
legislature, is not voidable only, but wholly void and of no
legal effect; the objection to the contract is not merely that
the corporation ought not to have made it, but that it could
not make it; the contract cannot be ratified by either party,
because it could not have been authorized by either; no
performance on either side can give the unlawful contract
any validity, or be the foundation of any right of action
upon it. When a corporation is acting within the general
scope of the powers conferred upon it by the legislature,
the corporation, as well as persons contracting with it,
may be estopped to deny that it has complied with the
legal formalities which are prerequisites to its existence
or to its action, because such requisites might in fact have

21
been complied with. But when the contract is beyond the
powers conferred upon it by existing laws, neither the
corporation, nor the other party to the contract, can be
estopped, by assenting to its or by acting upon it, to show
that it was prohibited by those laws.” Louisville, N. A.
& C. R. Co. v. Louisville Trust Co., 174 U.S. 552, 561, 19
S. Ct. 817, 820, 43 L. Ed. 1081, 1086, 1899 U.S. LEXIS
1518, *16 See also California Bank v. Kennedy, 167 US
362 (1897); Jacksonville M., P.R. & N. Co. v. Hooper, 160
U.S. 514 (1896).
Massachusetts General Statutes chapter 110 section
5 stipulates the procedures necessary for a “trade name”
such as ABC, to be able to legally enter into a contract is
to register the name in the town where it does business.
ABC was not registered in Mashpee, Massachusetts
where the Plaintiffs live, nor with the Massachusetts
Secretary of State. Unless an individual was aware of
the Massachusetts Banking Commission’s Cease and
Desist Order to American Home Mortgage Corp., no one
would know what ABC was pretending to be. The First
Circuit affirmed the district court statement “American
Brokers Conduit was a trade name under which American
Home Mortgage Corporation did business. American
Home Mortgage Corporation was properly licensed as a
mortgage broker in Massachusetts on March 21, 2000.”
(App. 16a). The district court goes on to say “Even if
American Home Mortgage Corporation improperly failed
to register that trade name with regulatory authorities,
it does not follow that the Harrys were somehow deceived
or defrauded by the use of that name. (App.17a).
The district court admitted ABC was a fictitious name
and was not registered and gave it legitimacy outside of
the Massachusetts statute.

22
3.

MGL 255E and 255F (App. ____)

The distr ict cour t and First Circuit ig nored
Massachusetts statutes 255E and 255F. These statutes
legislative history began in 1783 when Chapter 25 was
enacted creating the Massachusetts Banking Commission
and prescribing the requirements as to how and who an
entity meeting the definition of a “person” may become
licensed to lend money in Massachusetts. (App.___)
This assertion by the district court above dismissing
the fact that the name on the lending documents is
nothing more than an unregistered trade name completely
dishonors the Massachusetts Banking Commissions’
power as given to it by the Massachusetts legislature.
The Banking Commission ruled in Docket Number 99026 [A1311]
“No authority exists under said chapter 255E
for a mortgage lender to conduct business under
an existing license while also using a trade
name for all or any part of its business. The
intent of the licensing framework set forth in
said chapter 255E is to ensure that a consumer
knows the identity of the entity with which he or
she is doing business. To allow a lender to use
a name other than the name which appears on
its license would be contrary to this intent and
foster potential consumer confusion regarding
the identity of the licensee. Accordingly, it is
not permissible for a licensed lender to conduct
business under more than one name.”
It is imperative for the Supreme Court to grant a Writ
Certiorari. Petitioners Fifth and Fourteenth Amendment

23
rights to procedural and substantive due process have
been completely ignored and that violation will result in
the unlawful taking of Petitioners property. Petitioners
have a right to have the First Circuit rule on the merits
of the case at bar. The Petitioners have a right that for a
judicial ruling to uphold Massachusetts statutes and this
Court’s rulings.
II. REVIEW IS WARRANTED WHERE A MOTION
TO DISMISS MAY ONLY BE ENTERED IF
THERE ARE NO ISSUES OF MATERIAL FACT.
The Court is required to “take as true ‘the allegations
of the compliant, as well as such inferences as may be drawn
therefrom in the plaintiffs’ favor…’” Blank v. Chelmsford
Ob/Gyn, P.C. 420 Mass. 404, 407 (1995). “What is required
at the pleading stage are factual ‘allegations plausibly
suggesting (not merely consistent with)’ an entitlement to
relief . . .” Iannacchino v. Ford Motor Co., 451 Mass. 623,
636 (2008), quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 557 (2007). “Factual allegations must be enough to
raise a right to relief above the speculative level….. based
on the assumption that all the allegations in the complaint
are true (even if doubtful in fact) …” Iannacchino v.
Ford Motor Co., supra at 636, quoting Bell Atl. Corp. v.
Twombly, supra at 555. “To survive a motion to dismiss, a
complaint must contain sufficient factual matter, accepted
as true, to state a claim to relief that is plausible on its
face. A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged. The plausibility standard is not akin
to a probability requirement, but it asks for more than a
sheer possibility that a defendant has acted unlawfully.”
Ashcrof v. Iqbal 556 U.S. 662, 2009.

24
In considering the merits of these motions, the Court
must accept all factual allegations in the complaint as true
and draw all reasonable inferences [*6] in plaintiffs’ favor.
See Lu, 98 F. Supp. 3d at 93. Moreover, the Court should
“treat any allegations in the answer that contradict the
complaint as false.” Id. at 94. The Court may also consider
certain documents when 1) the documents’ authenticity
is not disputed by the parties, 2) the documents are
“central to the plaintiffs’ claim” or 3) the documents are
“sufficiently referred to in the complaint.” Curran v.
Cousins, 509 F.3d 36, 44 (1st Cir. 2007). Traut v. Quantum
Servicing Corp., 2016 U.S. Dist. LEXIS 104180, *5-6
As Petitioners stated and offered evidence as proof
to the district court, ABC was an unregistered fictitious
name, an alleged dba of American Home Mortgage Corp.,
was not a “person” as that term is defined under M.G.L.
255F4. As a fictitious unregistered DBA, ABC could not
become a licensed lender under the Massachusetts statute.
ABC lacked the legal authority to enter into a lending
contract. None of the defendants nor the district court
deny that ABC did not have a license to lend money or
that it was not properly registered.
Defendant Ocwen testified that it deems ABC to be a
licensed lender based on “Attorney/client” work product.
[A1260, pgs. 47, 55] That is not an exception under MGL
255E and 255F. Whether or not ABC had the legal capacity
to enter into a lending arrangement is a material fact.

4. ‘’Person’’, a natural person, corporation, company, limited
liability company, partnership, or association. American Brokers
Conduit, a tradename, a “doing business as” does not meet this
definition.

25
Ocwen admitted that the alleged note they were relying
on for servicing the alleged loan was forged stating that
the “signature on the note does not match the signature of
the Plaintiffs”. [A1610, pg. OLS000244]. This is material
fact, who forged the new note. It was kept in Deutsche
Bank’s collateral file and relied upon by Deutsche Bank
and Ocwen. Fidelity had a subsidiary, DOCX that did
nothing but fabricate new lending documents. The original
note has not been produced and does not exist since it
was a fabricated note that was produced at deposition
as the original. Servicing a fabricated note with forged
signatures is a felony.
Ocwen presented a second forged alleged Mortgage
testifying that it was a “True and Certified Copy” of
the original. [A1260, pgs. 49, 53, 57, 58, 59]. Ocwen
admitted that these fabricated forged documents came
from Deutsche Bank’s collateral file. No legal lending
transaction executes two mortgages one requesting to
be returned to Fidelity National Title Company and one
requesting to be returned to American Brokers Conduit.
Who fabricated the second mortgage?
There are many material issues in dispute in this case.
Statute of Limitations
The First Circuit was wrong to dismiss the case based
on the statute of limitations. In order for the Statute of
Limitations to begin to apply, there has to be a legal
transaction. The First Circuit was wrong to deem there
to be a legitimate lending transaction in contravention of
Massachusetts General Statutes and deem every count in
the Plaintiffs Amended Complaint as being time barred.
“An act done in disobedience to the law creates no right of

26
action which a court of justice will enforce. The authorities
from the earliest time to the present unanimously held
that no court will lend its assistance in any way toward
carrying out the terms of an illegal contract.” Connolly
v. Union Sewer Pipe Co., 184 U.S. 540, 541, (1902). See
Continental Wall Paper Co. v. Louis Voight & Sons Co.
212 U.S. 227 (1909).
III. R E V I E W I S WA R R A N T E D W H E R E
FABRICATION OF DOCUMENTS IS A VIOLATION
OF THE FAIR DEBT COLLECTION PRACTICES
ACT (“FDCPA”); THE ISSUANCE OF SUMMARY
JUDGMENT ON THIS COUNT WAS IN ERROR.
A.

Summary Judgment Granted to Defendant
Ocwen in Error.

A moving party is to be spared a trial when there is
no genuine issue of material fact on the record and that
party is entitled to judgment as a matter of law. See Fed.
R. Civ. P. 56(a); see also Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248-49 (1986); Celotex Corp. v. Catrett, 477
U.S. 317, 322-25 (1986). The plaintiff need only establish
one FDCPA violation to prevail. Leone v. Ashwood Fin.,
Inc., 257 F.R.D. 343 (E.D.N.Y. 2009). Ruth v. Triumph
P’ships, 577 F. 3d 790 (7th Cir. 2009). The FDCPA is a
strict liability statute, and debt collectors whose conduct
falls short of its requirements are liable here respective
of their intentions. Boyko v. Am. Intern Group, Inc., 2009
WL 5194431 (D.N.J.) (Dec. 23, 2009).
The movant must inform the court of the basis
for the summary judgment motion and must point to
relevant excerpts from pleadings, depositions, answers to
interrogatories, admissions, or affidavits that demonstrate

27
the absence of genuine factual issues. Celotex Corp., 477
U.S. at 323; Topalian v. Ehrman, 954 F.2d 1125, 1131 (5th
Cir. 1992). Admissions on file provide proper grounds for
summary judgment. Fed. R. Civ. P. 56; 8 In re Carney,
258 F.3d 415, 420 (5th Cir. 2001).
Summary Judgment granted to Ocwen was in error.
B. Defendants violated the FDCPA, M.G.L. 93A
The FDCPA was enacted in 1978 to “eliminate abusive
debt collection practices by debt collectors, to insure that
those debt collectors who refrain from using abusive debt
collection practices are not competitively disadvantaged,
and to promote consistent State action to protect
consumer’s debt collection abuses. 15 U.S.C. Section 1692
(e). The FDCPA (15 U.S.C.S. § 1692 et seq.) prohibits a debt
collector from asserting any false, deceptive, or misleading
representation, or using any unfair or unconscionable
means, to collect, or attempt to collect, a debt. 15 U.S.C.S.
§§1692e, 1692f. Midland Funding, LLC v. Johnson, 137 S.
Ct. 1407, 1408, 97 (2017). The FDCPA, 15 U.S.C.S. § 1692
et seq., imposes strict liability on debt collectors for their
violations. A plaintiff need not show intentional conduct
by the collector or actual damages. A plaintiff need only
show a violation of one of the FDCPA’s provisions in order
to make out a prima facie case. In order to prevail on a
FDCPA claim, a plaintiff must prove that (1) he was the
object of collection activity arising from consumer debt,
(2) the defendant is a debt collector within the meaning
of the statute, and (3) the defendant engaged in a
prohibited act or omission under the FDCPA. Waters v.
J.C. Christensen & Assocs., 2011 U.S. Dist. LEXIS 41075,
*1, 2011 WL 1344452. The FDCPA prohibits the use of
any false representation or deceptive means to collect

28
or attempt to collect any debt or to obtain information
concerning a consumer. 15 U.S.C.S. §1692e(10). Id.
The Massachusetts Consumer Protection Act, Mass.
Gen. Laws ch. 93A (Chapter 93A), prohibits unfair
methods of competition and unfair or deceptive acts or
practices in the conduct of any trade or commerce. Mass.
Gen. Laws ch. 93A, § 2(a). Pursuant to Chapter 93A, a
business practice is unfair and deceptive if it can be found
to be immoral, unethical, oppressive, or unscrupulous;
or within the bounds of some statutory, common-law or
other established concept of unfairness. Id. To allege that
a business practice is deceptive or unfair under the first
element, plaintiffs must show that the trade practice or
conduct [1] falls within at least the penumbra of some
common-law, statutory, or other established concept
of unfairness; [2] is immoral, unethical, oppressive,
or unscrupulous; and [3] causes substantial injury to
consumers. See Young, 828 F.3d 26, 2016.
The First Circuit’s erred when it ruled that Ocwen
did not violate the FDCPA. That act was created to
make sure corporations did not engage in dishonorable
business practices to collect on a debt. Fabricating new
lending documents to replace lost originals and forging
signatures is a dishonorable business practice and a felony.
The Defendants not only violated the FDCPA but also
M.G.L. 93A.

29
Conclusion
The Supreme Court must hear this case. The First
Circuit ruling dishonors the United States Constitution,
federal law, Massachusetts General Statutes and rulings
of the United States Supreme Court. When a federal
judge takes the oath of office to uphold the United States
Constitution and all federal and state laws for the duration
of his/her life that standard of upholding the law applies
irrespective of the case presented.
The Supreme Court must hear this case to stop
corporations from fabricating lending documents to
replace originals that have been lost and ensure due
process is awarded every citizen before the taking of
property.
Respectfully submitted,
Tina L. Sherwood
Counsel of Record
Law Office of Tina L. Sherwood
19C Governors Way
Milford, MA 01757
(617) 930-3533
tina@sherwoodlawma.com
Counsel for Petitioners

APPENDIX

1a
Appendix A of the United
Appendix A — JUDGMENT
States Court of Appeals For the First
Circuit, FILED March 8, 2019
United States Court of Appeals
For the First Circuit
No. 18-1829
TIMOTHY C. HARRY; KAREN C. HARRY,
Plaintiffs-Appellants,
v.
AMERICAN BROKERS CONDUIT; APEX
MORTGAGE SERVICES; FIDELITY NATIONAL
TITLE GROUP, INC.; AMERICAN HOME
MORTGAGE SERVICING, INC.; DEUTSCHE BANK
NATIONAL TRUST COMPANY, as Trustee for
American Home Mortgage Assets Trust
2007-2 Mortgage-Backed Pass-Through
Certificates, Series 2007-2; HOMEWARD
RESIDENTIAL, INC.; MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC.; OCWEN
LOAN SERVICING, LLC; FIDELITY NATIONAL
FINANCIAL, INC.; FIDELITY NATIONAL
TITLE COMPANY,
Defendants-Appellees,
KORDE & ASSOCIATES, P.C.;
ABLITT & CHARLTON, P.C.,
Defendants.

2a
Appendix A
Before Lynch, Circuit Judge, Souter,* Associate
Justice, and Kayatta, Circuit Judge.
Entered: March 8, 2019
JUDGMENT
After careful consideration of the record and the
parties’ arguments, we affirm the district court’s decisions
granting the defendants’ motions to dismiss and motions
for summary judgment, and denying the plaintiffs’ motion
for default judgment, for essentially the same reasons
given by the district court. Almost all of the plaintiffs’
claims, brought in an attempt to void a loan refinancing
agreement nearly a decade after the transaction, are
time-barred or fail to state a valid cause of action. See
Harry v. Countrywide Home Loans, Inc., 902 F.3d 16, 18
(1st Cir. 2018) (rejecting the plaintiffs’ argument that “the
statute of limitations never runs on void documents”). The
plaintiffs’ remaining claim under the Fair Debt Collection
Practices Act, 15 U.S.C. § 1692 et seq., fails because there
is no evidence that Ocwen Loan Servicing, LLC attempted
to collect an invalid debt or otherwise engaged in an act
or omission prohibited by that statute. Affirmed. See 1st
Cir. Rule 27.0(c).
By the Court:
Maria Hamilton, Clerk
* Hon. David H. Souter, Associate Justice (Ret.) of the
Supreme Court of the United States, sitting by designation.

3a
B the UNITED
Appendix b —Appendix
ORDER of
STATES DISTRICT COURT for the DISTRICT
OF MASSACHUSETTS, filed august 24, 2018
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
Civil Action No. 16-10895-FDS
TIMOTHY C. HARRY AND KAREN C. HARRY,
Plaintiffs,
v.
AMERICAN BROKERS CONDUIT, et al.,
Defendants.
ORDER DENYING MOTIONS
FOR DEFAULT JUDGMENT
SAYLOR, J.
On June 28, 2016, a default was entered against
defendants American Brokers Conduit and Apex Mortgage
Services under Fed. R. Civ. P. 55(a). On July 8, 2016,
plaintiffs Timothy and Karen Harry moved for entries of
default judgment against those same defendants. Because
it was unclear whether plaintiffs had properly completed
service of process on those defendants, this Court issued
an order to show cause on December 22, 2016. The Harrys
responded on January 12, 2017, demonstrating that service
had been properly completed.

4a
Appendix B
That same day, the Court entered a memorandum
and order dismissing all counts of the amended complaint
as to all other defendants, except a claim for violation of
the Fair Debt Collection Practices Act as to Ocwen Loan
Servicing, LLC. Among other things, the Court found
that the limitations period had expired as to the Harrys’
claims, and that equitable estoppel and equitable tolling
did not apply.
On October 23, 2017, the Court denied the Harrys’
motion for default judgment without prejudice, noting
that Fed. R. Civ. P. 54(b) required that judgment could
not enter until all claims were resolved as to all parties.
On August 16, 2018, the Court granted Ocwen’s motion
for summary judgment. Accordingly, all other claims have
now been resolved.
Since then, the Harrys have filed renewed motions
for default judgment as to American Brokers Conduit
and Apex Mortgage Services, seeking approximately
$24 million in damages. However, for the reasons set
forth in the Court’s January 12, 2017 memorandum
and order, it is clear that their claims against those
defendants are without merit, either because they are
time-barred or because they fail to state a valid cause
of action. In addition, the amounts claimed are obviously
grossly excessive, and the Harrys have failed to show any
prejudice. Under the circumstances, the entry of default
judgment is inappropriate. See Lau v. Cooke, 2000 WL
287690, at *2 (2d Cir. Mar. 16, 2000) (affirming denial of
motion for default judgment as within the district court’s

5a
Appendix B
discretion where plaintiff’s claims were without merit, no
prejudice was shown, and the amount sought by plaintiff
was substantial); see also Limehouse v. Delaware, 2005
WL 1625233, at *2 (3d Cir. July 12, 2005); Marshall v.
Bowles, 2004 WL 515915, at *2 (6th Cir. Mar. 15, 2004).
For the foregoing reasons, the Harrys’ motions for
default judgment as to defendants American Brokers
Conduit and Apex Mortgage Services are DENIED.
Because there is no apparent reason why the claims
against American Brokers Conduit and Apex Mortgage
Services should remain pending, and because there is no
reason for additional delay, the clerk is directed to dismiss
the claims against those two parties without prejudice and
to enter final judgment.
So Ordered.
/s/ F. Dennis Saylor 		
F. Dennis Saylor IV
United States District Judge
Dated: August 24, 2018

6a
Appendix C
APPENDIX C — MEMORANDUM
AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MASSACHUSETTS, FILED
AUGUST 16, 2018
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
Civil Action No. 16-10895-FDS
TIMOTHY C. HARRY AND KAREN C. HARRY,
Plaintiffs,
v.
OCWEN LOAN SERVICING, LLC,
Defendant.
August 16, 2018, Decided
August 16, 2018, Filed
MEMORANDUM AND ORDER ON CROSSMOTIONS FOR SUMMARY JUDGMENT AND
PLAINTIFFS’ MOTION TO STRIKE
SAYLOR, J.
This is a dispute arising out of a mortgage issued
to plaintiffs Timothy and Karen Harry in 2006. On
December 21, 2006, the Harrys took out a $450,000 loan
to refinance their existing mortgage and executed a new
mortgage on their property to secure payment of that loan.

7a
Appendix C
They stopped making payments on the new mortgage in
November 2008. Although several foreclosure attempts
followed, they remain in the house, despite not having
made mortgage payments for nearly a decade.
In 2016, the Harrys filed this lawsuit, alleging in
substance that the 2006 note and mortgage were void
because the lender, American Brokers Conduit, was not
an incorporated entity and was not licensed to do business
in any state at the time of the loan. They contend that
all subsequent assignments of the mortgage were void
and all attempts to collect on the note or to foreclose
on the property were unauthorized. The 141-page
amended complaint sought approximately $200 million in
compensatory and punitive damages.
The Court has previously dismissed all claims in
this matter but one. The only remaining claim is a claim
against defendant Ocwen Loan Servicing for violation of
the Fair Debt Collection Practices Act (“FDCPA”). The
parties have now cross-moved for summary judgment,
and the Harrys have also moved to strike certain exhibits
offered by Ocwen in support of its motion.
For the reasons set forth below, the Harrys’ motion
to strike and motion for summary judgment will be
denied, and Ocwen’s motion for summary judgment will
be granted.

8a
Appendix C
I.

Background
A.

Factual Background

The following facts are undisputed, except where
otherwise noted.
On December 21, 2006, Timothy and Karen Harry
executed an adjustable rate note in the principal amount of
$450,000. (Def. Ex. A).1 The named lender was American
Brokers Conduit. (Id.). The note was secured by a
mortgage on the Harrys’ home, located at 31 Marway,
Mashpee, Massachusetts. (Def. Ex. E; K. Harry Dep.
at 46; T. Harry Dep. at 65-66). The named mortgagee
was Mortgage Electronic Registration Systems, Inc.
(“MERS”), as nominee for American Brokers Conduit.
(Def. Ex. E). 2
A merican Home Mortgage Corporation, doing
business as American Brokers Conduit, is a subsidiary
of American Home Mortgage Holdings, Inc. (Def.
Ex. M). 3 American Home Mortgage Corporation and
1. Only Timothy Harry’s signature is on the note.
2. The mortgage describes American Brokers Conduit as a
“corporation,” which is apparently incorrect. (Def. Ex. E).
3. The Harrys contend that American Brokers Conduit was
not licensed to do business in Massachusetts. In support, they
provided a screenshot from the Massachusetts Secretary of State’s
website showing that there is no corporation named “American
Brokers Conduit.” (Pl. Ex. B). However, a cease-and-desist order
from the Massachusetts Secretary of State issued on August 2,
2007, shows that American Home Mortgage Corporation, which

9a
Appendix C
American Home Mortgage Holdings, Inc., are New York
corporations with principal offices in Melville, New York.
(Id.). American Home Mortgage Corporation was licensed
to do business as a mortgage lender and mortgage broker
in Massachusetts on March 21, 2000. (Id.). Therefore,
at the time the Harrys executed the loan documents,
American Home Mortgage Corporation was permitted
to conduct business as a mortgage lender and mortgage
broker in Massachusetts. It apparently did business under
the trade name American Brokers Conduit.
The Harrys used the loan to refinance an existing
mortgage loan on their property, securing a lower interest
rate and lower monthly payment. (T. Harry Dep. at 4950). The bulk of the loan proceeds, $438,000, was used
to pay off the Harrys’ existing loan with Countrywide
Mortgage. (K. Harry Dep. at 41-42). The Countrywide
Mortgage discharge was then recorded at the Barnstable
County Registry of Deeds on December 28, 2006. (Def.
Ex. D). The remaining $12,000 was used by the Harrys
for various home improvements. (K. Harry Dep. at 42; T.
Harry Dep. at 63-64).
The Harrys made approximately 20 monthly payments
on the note before defaulting in November 2008. (K. Harry
Dep. at 65, 73; T. Harry Dep. at 51). They stopped paying
because they believed they were victims of predatory
lending, despite the fact they were financially capable of
making payments. (K. Harry Dep. at 68; T. Harry Dep.
at 98-99).
was licensed to do business in the Commonwealth, was doing
business under the name American Brokers Conduit. (Def. Ex. M).

10a
Appendix C
On May 1, 2009, Mortgage Electronic Registration
Systems (“MERS”), as nominee for American Brokers
Conduit, assigned the mortgage to Deutsche Bank
National Trust Company. (Def. Ex. G). MERS executed
a confirmatory assignment of the mortgage to Deutsche
Bank National Trust Company on July 7, 2011. (Def. Ex.
H).
Over the next few years, the Harrys submitted
multiple applications for loan modifications in an attempt
to “free [themselves]” from what they considered
“the original fraudulent loan.” (T. Harry Dep. at 111).
The Harrys received a loan modification offer from
American Home Mortgage Servicing, Inc., on May 15,
2012. (K. Harry at 80-81). The Harrys also received loan
modification offers and loss mitigation options from other
servicers. (T. Harry Dep. at 114). However, they did not
accept any of these offers.
In the interim, the Harrys had received multiple
foreclosure notices. Those notices were sent on September
28, 2009; November 11, 2010; and July 14, 2011. (Am.
Compl. ¶¶ 94, 102, 104).
In March 2013, Ocwen Loan Servicing became the
loan servicer. (Def. Ex. I). By February 2015, the Harrys
had been in default for more than six years. On February
13, 2015, Ocwen mailed them a document titled “150 Day
Right to Cure Your Mortgage Default.” (Def. Ex. J). The
document warned that if they did not pay the total due past
amount, and any additional payments due in the interim,
the property could be foreclosed. (Id.).

11a
Appendix C
On March 20, 2015, the Harrys mailed a letter to
Deutsche Bank National Trust Company entitled “[Truth
in Lending Act] Notice of Rescission.” (Def. Ex. K). The
Harrys purported to rescind the loan, despite having
already received (and spent) the $450,000 loan proceeds.
(Id.). Ocwen, as Deutsche Bank’s loan servicer, replied on
April 1, 2015, acknowledging receipt of the letter. (Def.
Ex. L).
On June 10, 2015, Ocwen issued a Notice of Default to
the Harrys. The notice stated that the amount past due
was $223,611.23, and that foreclosure would occur unless
they became current on their payments. (Def. Ex. F). On
July 1, 2015, Ocwen issued another notice to the same
effect. (Def. Ex. O).4 It is undisputed that no payments
were made, as the Harrys continued to assert that the
note was void and unenforceable. (K. Harry Dep. at 95;
T. Harry Dep. at 155-56).
On January 28, 2016, attorney Paul Manning, mailed
a letter to the Harrys stating that he represented Ocwen
and that Ocwen intended to foreclose on the property.
(Def. Ex. P). Invoking the note’s acceleration clause, the
letter stated that to cure the default, the Harrys needed
to pay $760,734.62 (Id.). Again, the Harrys refused to
repay the loan, contending it was void. (K. Harry Dep. at
100; T. Harry Dep. at 172-73).

4. This time, the stated amount past due was $223,614.37.

12a
Appendix C
B. Procedural History
The Harrys filed the original complaint in this action
on March 18, 2016, in Barnstable Superior Court, against
a variety of defendants, including Ocwen, Apex Mortgage
Services, and American Brokers Conduit. The case was
removed to federal court on May 17, 2016. An amended
complaint was then filed on June 22, 2016.
On July 8, 2016, the Harrys moved for entry of default
judgment against Apex Mortgage Services and American
Brokers Conduit for failure to answer the complaint. The
motion was denied without prejudice on October 23, 2017.
(Docket No. 167).
The 141-page, 11-count complaint alleged a violation
of the Racketeer Influenced and Corrupt Organizations
Act (“RICO”), 18 U.S.C. § 1961 et seq., (Count One); a
claim that the statute of limitations to collect on the note
expired, (Count Two); a violation of Mass. Gen. Laws ch.
93A, (Count Three); violations of the Fair Debt Collection
Practices Act (“FDCPA”), 15 U.S.C. § 1692 et seq., (Count
Four); violations of the Real Estate Settlement Procedures
Act (“RESPA”), 12 U.S.C. § 2601, (Count Five); a violation
of 18 U.S.C. § 1014 (Count Six); violations of the Truth
in Lending Act, 15 U.S.C. § 1601 et seq., (Count Seven);
slander of title, (Count Eight); and fraud, (Count Nine). In
addition, the complaint sought a rescission of the note and
mortgage as well as quiet title to the property (Count Ten),
and asserted that no defendant had standing to foreclose
on the property (Count Eleven).

13a
Appendix C
On January 12, 2017, the Court granted in part and
denied in part defendants’ motion to dismiss. Specifically,
the Court dismissed all counts except for Count Four,
the claim under the FDCPA, as to Ocwen. Ocwen and
the Harrys have now moved for summary judgment on
that remaining claim, and the Harrys have also moved
to strike certain exhibits attached to Ocwen’s supporting
memorandum.
II. Motion to Strike
The Harrys have moved to strike seven exhibits
that Ocwen offered in support of its motion for summary
judgment: the note (Def. Ex. A); the mortgage (Def. Ex.
E); MERS’ assignment of the mortgage to Deutsche Bank
National Trust Company (Def. Ex. G); the confirmatory
assignment of the mortgage to Deutsche Bank National
Trust Company (Def. Ex. H); the notice that Ocwen had
become the loan servicer (Def. Ex. I); an affidavit from
Katherine Ortwerth certifying Ocwen’s exhibits (Def.
Ex. N); Ocwen’s second statement of intent to foreclose
(Def. Ex. O); and the letter attorney Manning wrote to
the Harrys stating that Ocwen would foreclose on the
property (Def. Ex. P). Because the disposition of the
motion to strike will affect the evidentiary record, the
Court will resolve it first.
The Harrys argue that the Ortwerth affidavit should
be struck because her statements constitute hearsay. (Pls.
Mem. in Supp. of Mot. to Strike at 2). They contend that
because Ortwerth is an employee of Ocwen Financial
Corporation rather than Ocwen Loan Servicing, she is

14a
Appendix C
unqualified to provide an affidavit. In turn, because the
Ortwerth affidavit was used to authenticate the other six
exhibits, the Harrys contend that those exhibits should
also be struck.
That argument is plainly without merit. As Ortwerth’s
affidavit makes clear, Ocwen Loan Servicing is an indirect
subsidiary of Ocwen Financial Corporation. (Def. Ex. N
¶ 2). In addition, although Ortwerth was not personally
involved in creating the documents in question, such
documents may be authenticated, and qualify under the
hearsay exception for business records, provided they are
certified by a “custodian or another qualified witness.”
Fed. R. Evid. 803(6)(D), 902(11). Ortwerth is such a
witness. In preparing her affidavit, she reviewed Ocwen’s
business records and correspondence, and personally
verified the loan accounting information. (Def. Ex. N ¶ 5).
There is no requirement that the “qualified witness” be
the person who actually prepared the record. See HMC
Assets, LLC v. Conley, 2016 U.S. Dist. LEXIS 111594,
2016 WL 4443152, at *3 (D. Mass. Aug. 22, 2016).
Therefore, the motion to strike will be denied. 5
III.

Legal Standard for Summary Judgment

The role of summary judgment is to “pierce the
pleadings and to assess the proof in order to see whether
there is a genuine need for trial.” Mesnick v. General Elec.
5. The Harrys also appear to object to Ortwerth’s answers
in her deposition testimony as incomplete or evasive. (Pls. Mem.
in Supp. of Mot. to Strike at 13). To that extent, they should have
filed a motion to compel, not a motion to strike.

15a
Appendix C
Co., 950 F.2d 816, 822 (1st Cir. 1991) (quoting Garside v.
Osco Drug, Inc., 895 F.2d 46, 50 (1st Cir. 1990)). Summary
judgment is appropriate when the moving party shows
that “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). A genuine issue is “one that must be
decided at trial because the evidence, viewed in the light
most flattering to the nonmovant, would permit a rational
fact finder to resolve the issue in favor of either party.”
Medina-Munoz v. R.J. Reynolds Tobacco Co., 896 F.2d 5, 8
(1st Cir. 1990) (citation omitted). In evaluating a summary
judgment motion, the court indulges all reasonable
inferences in favor of the nonmoving party. See O’Connor
v. Steeves, 994 F.2d 905, 907 (1st Cir. 1993). When “a
properly supported motion for summary judgment is
made, the adverse party must set forth specific facts
showing that there is a genuine issue for trial.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 250, 106 S. Ct. 2505, 91
L. Ed. 2d 202 (1986) (quotations omitted). The nonmoving
party may not simply “rest upon mere allegation or denials
of his pleading,” but instead must “present affirmative
evidence.” Id. at 256-57.
IV. Summary Judgment Analysis
The FDCPA was enacted in 1978 to “eliminate
abusive debt collection practices by debt collectors, to
insure that those debt collectors who refrain from using
abusive debt collection practices are not competitively
disadvantaged, and to promote consistent State action
to protect consumers against debt collection abuses.” 15
U.S.C. § 1692(e). The elements of a FDCPA claim are as
follows: (1) the plaintiff was the object of collection activity

16a
Appendix C
arising from consumer debt; (2) the defendant is a debt
collector as defined by the FDCPA; and (3) the defendant
engaged in an act or omission prohibited by the FDCPA.
See Rhodes v. Ocwen Loan Servicing, LLC, 44 F. Supp.
3d 137, 141 (D. Mass. 2014). It is undisputed that the
Harrys were the “object of collection activities arising
from consumer debt” and that Ocwen is a “debt collector.”
The parties only dispute whether Ocwen’s conduct was
prohibited by the FDCPA.
The Harrys contend that Ocwen violated the FDCPA
three times by trying to collect an invalid debt. First, on
June 10, 2015, Ocwen issued a Notice of Default. (Def.
Ex. F). Second, on July 1, 2015, Ocwen issued another
such notice, warning that the loan was past due and that
foreclosure would occur. (Def. Ex. O). Third, on January
28, 2016, attorney Manning mailed a letter on behalf of
Ocwen warning that Ocwen would initiate the foreclosure
process. (Def. Ex. P).
The Harrys do not dispute the substantive content of
these documents. Rather, their only argument is that the
underlying debt is void, and that any attempts to collect on
that obligation constitute abusive debt collection practices.
(Pls. Mem. in Supp. of SJ at 12). In support, they claim
that American Brokers Conduit was not licensed to do
business in Massachusetts, and that therefore the entire
transaction was void from the beginning.
As explained above, American Brokers Conduit was
a trade name under which American Home Mortgage
Corporation did business. (Def. Ex. M). American
Home Mortgage Corporation was properly licensed as a

17a
Appendix C
mortgage lender and mortgage broker in Massachusetts
on March 21, 2000. (Id.). Even if American Home Mortgage
Corporation improperly failed to register that trade name
with regulatory authorities, it does not follow that the
Harrys were somehow deceived or defrauded by the use
of that name. Among other things, they received $450,000
in loan proceeds, which were hardly fictitious. And it
certainly does not follow that the entire transaction was
void from the beginning. The Harrys have cited no legal
authority for that proposition, and it is unsupported by
logic or equity.6 Accordingly, there is no reason to conclude
that the note was void or unenforceable.
The Harrys offer several additional arguments:
(1) Ocwen fabricated the loan and mortgage, (2) that Ocwen
“was charging [the Harrys] litigation fees three years
before a complaint was filed,” (3) that Ocwen improperly
charged for “hazard insurance” on the property, and that
(4) that Ocwen should have known the loan was void. (Pls.
Mem. in Supp. of SJ at 12-13).
None of those contentions have merit. First, as the
Harrys conceded in their depositions, they personally
executed the note and mortgage on the property, and they
received (and used) the proceeds. The loan and mortgage
are therefore not “fabricated.” (Def. Exs. A, E; K. Harry

6. Despite their claims of rescission and that the loan was void
from the outset, the Harrys do not seek to unwind the transaction
in its entirety. Rather, they seek both to keep the house and to
cancel the debt—in other words, they want the house for free.
Such a resolution would not, to put it mildly, be fair and equitable.

18a
Appendix C
Dep. at 46-47; T. Harry Dep. at 65-66).7 Second, the
Harrys point to a line item in Ocwen’s files stating that
they were charged $3,917.80 in litigation fees on May 21,
2013, three years before this suit was filed. (Pl. Ex. I-1 at
1). However, those fees were for foreclosure proceedings
that Ocwen initiated because of the Harrys’ default.
(Ortwerth Dep. at 142-44). The mortgage authorized the
lender to charge such fees to the borrower. (Def. Ex. E
at 10). Third, the Harrys point to another line item dated
March 11, 2013, stating “Hazard Insurance Policy Setup
Required.” (Pl. Ex. I at 5). It appears the Harrys were
charged certain premiums for hazard insurance. However,
the text of the mortgage clearly gave the lender the right
to purchase property insurance in the event the borrower
failed to maintain certain forms of coverage. (Def. Ex. E
at 7). Here, Ocwen simply continued paying the Harrys’
existing hazard insurance. (Def.’s Opp. Ex. D). Finally, the
loan was clearly not void, as discussed above. And even if
the loan was invalid for some reason, a debt collector is
not obligated to verify the validity of the debt. See Clark
v. Capital Credit & Collection Servs., 460 F.3d 1162, 1174
(9th Cir. 2006) (“Within reasonable limits, [a debt collector
is] entitled to rely on [its] client’s statements to verify the
debt.”); Shapiro v. Haenn, 222 F. Supp. 2d 29, 44 (D. Me.
2002) (“[D]ebt collectors may rely on the information their
7. The Harrys claim that they did not sign the note produced
by Ocwen. In support, they point to an entry in Ocwen’s files dated
July 15, 2015, which states “Signature not matching.” (Pl. Ex. I-7
at 10). Putting aside the fact that the entry does not provide any
greater specificity, the Harrys do not dispute either the content of
the note or the fact that they executed a note with identical terms
on December 21, 2006. Rather, they only offer the farfetched claim
that Ocwen fabricated the note and mortgage in question.

19a
Appendix C
clients provide, and the FDCPA does not require them to
conduct their own investigation into the amount or validity
of the underlying loan.”). 8
Accordingly, there is no evidence that Ocwen violated
the FDCPA, and summary judgment in its favor is
appropriate.
V. Conclusion
For the foregoing reasons, plaintiffs’ motion to strike
is DENIED; plaintiffs’ motion for summary judgment is
DENIED; and defendant’s motion for summary judgment
is GRANTED.
So Ordered.
/s/ F. Dennis Saylor
F. Dennis Saylor IV
United States District Judge
Dated: August 16, 2018
8. The Harrys also claim that Ocwen’s comment log for their
loan contains judicial admissions. (Pls. Mem. in Supp. of SJ at 1617). This is plainly incorrect. A judicial admission is “[a] formal
waiver of proof that relieves an opposing party from having to
prove the admitted fact and bars the party who made the admission
from disputing it.” Admission (Judicial), Black’s Law Dictionary
(10th ed. 2014). Because a pleading in prior litigation does not
constitute a judicial admission in a subsequent case, it follows that
a comment in business records made pre-suit similarly cannot
constitute a judicial admission. See United States v. Raphelson,
802 F.2d 588, 592 (1st Cir. 1986).

20a
Appendix D
APPENDIX D — MEMORANDUM
AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MASSACHUSETTS,
FILED JANUARY 12, 2017
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
Civil Action No. 16-10895-FDS
TIMOTHY C. HARRY AND KAREN C. HARRY,
Plaintiffs,
v.
AMERICAN BROKERS CONDUIT; APEX
MORTGAGE SERVICES; FIDELITY NATIONAL
FINANCIAL, INC.; FIDELITY NATIONAL TITLE
COMPANY; FIDELITY NATIONAL TITLE GROUP,
INC.; AMERICAN HOME MORTGAGE SERVICING,
INC.; DEUTSCHE BANK NATIONAL TRUST
COMPANY, AS TRUSTEE FOR AMERICAN HOME
MORTGAGE ASSETS TRUST 2007-2 MORTGAGEBACKED PASS-THROUGH CERTIFICATES,
SERIES 2007-2; HOMEWARD RESIDENTIAL,
INC.; MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, INC.; AND OCWEN
LOAN SERVICING, LLC,
Defendants.
January 12, 2017, Decided
January 12, 2017, Filed

21a
Appendix D
MEMORANDUM AND ORDER ON DEFENDANTS’
MOTIONS TO DISMISS AND MOTION TO STRIKE
SAYLOR, J.
This is a dispute arising out of a mortgage issued to
plaintiffs in 2006. On December 21, 2006, plaintiffs took
out a $450,000 loan to refinance their existing mortgage
and executed a new mortgage on their property to secure
payment of that loan. Plaintiffs stopped making payments
on the new mortgage in 2008. Several foreclosure
attempts followed. Plaintiffs have now filed suit, alleging
in substance that the note and mortgage are void because
the lender, American Brokers Conduit, was not an
incorporated entity and was not licensed to do business
in any state at the time of the loan. The complaint further
alleges that all subsequent assignments of the mortgage
were void and all attempts to collect on the note or to
foreclose on the property were unauthorized.
Plaintiffs do not dispute that they received the
$450,000 loan to refinance their mortgage. They likewise
do not dispute that they continue to possess the property
and have made no mortgage payments for more than
eight years.
This is not a typical situation in which homeowner
plaintiffs are seeking to forestall a mortgage foreclosure,
contending that there is some defect in the assignment of
the mortgage or the note. Instead, plaintiffs claim that the
entire 2006 lending transaction should be declared void.
They seek “to have the original note marked cancelled and

22a
Appendix D
returned to [them],” “to have [the] mortgage . . . released
in the land records,” and to recover compensatory and
punitive damages of more than $197 million. In other
words, plaintiffs want to undo the loan transaction—but
they also want to keep both the $450,000 loan proceeds
(which, presumably, they used to discharge their prior
mortgage) and the property. Put simply, plaintiffs want
to erase their debt, keep the house (for free), and to be
compensated handsomely for their trouble.
Defendants have moved to dismiss the complaint
for the failure to state a claim upon which relief can be
granted. There are multiple problems with plaintiffs’
claims, beginning with the fact that the loan transaction
occurred in 2006, and the limitations period for almost all
of their claims expired some time ago. As to most of their
claims, the only real question is whether the limitations
period should be tolled for any reason. Because the
complaint fails to allege any plausible reason why those
limitations periods should be equitably tolled, the motions
to dismiss, with one exception, will be granted.
I.

Background
A.

Factual Background

The facts are set forth as described in the complaint.
1.

The Loan Application and Closing

Sometime prior to November 2006, plaintiffs Timothy
and Karen Harry were contacted by defendant APEX

23a
Appendix D
Mortgage Services, LLC, a mortgage servicing company,
about refinancing the mortgage on their home in Mashpee,
Massachusetts. (Am. Compl. ¶¶ 1, 5, 15). In late November
2006, plaintiffs began the process of applying for a new
loan. (Id. ¶ 15). APEX faxed to the plaintiffs a “Borrower’s
Certification and Authorization Certification” form dated
December 2, 2006. (Id.). That form required plaintiffs’
signatures, certifying that the information they provided
in their loan application was true and complete. (Id.). The
form also stated that APEX had the right to initiate a full
documentation review to verify the information plaintiffs
provided, and that it, and the mortgage guaranty insurer
(if any), might verify the information in the loan application
and in any other documentation provided in connection
with the loan. (Id.). The form also required plaintiffs to
authorize APEX to provide any requested documents to
any investor to whom APEX might sell the mortgage. (Id.).
On December 13, 2006, plaintiffs formally applied
with APEX for a refinancing loan. (Id. ¶ 17). The loan
application was prepared by APEX, not by plaintiffs
themselves, and was faxed to plaintiffs on December 13.
(Id. ¶ 18). According to the complaint, the application
indicated that it was for a loan amount of $445,500 with
an interest rate of 1.750% for 480 months (40 years). (Id.).
The complaint alleges that APEX falsified information on
the application by, for example, significantly overstating
plaintiffs’ monthly income and referring to unspecified
credit union accounts and life insurance policies. (Id.).
It also alleges that the application was backdated to
November 29, 2006, and that the application was prepared
by Pierre Haber, “a known illegal robo-signer.” (Id. ¶ 22).

24a
Appendix D
Along with the loan application, APEX also sent
plaintiffs a Good Faith Estimate (“GFE”) form and Truth
in Lending (“TIL”) disclosure statement, both dated
November 20, 2006. (Id. ¶¶ 25, 30). The GFE stated a
loan number of 0611EM005801, a base loan amount of
$445,500, an interest rate of 1.750%, a term of 480 months
(40 years), as well as a number of fees associated with the
loan. (Id. ¶ 25). According to the complaint, the information
provided in the TIL disclosure differed from that in the
GFE. (Id. ¶ 31). The TIL disclosure stated a loan amount
of $458,089.49, an APR of 6.246%, and a term of 30 years.
(Id. ¶¶ 30, 52).
On December 21, 2006, defendant Fidelity Title
Company prepared a HUD-1A settlement statement
for plaintiffs’ loan. (Id. ¶ 36). The complaint alleges that
Fidelity Title Company does not exist. (Id. ¶¶ 8, 38).
According to the complaint, the HUD-1A included a
number of differences from the GFE and TIL disclosure
statement. The HUD-1A allegedly stated that American
Brokers Conduit was the lender, provided a different
loan number of 0001552524, and stated a loan amount of
$450,000. (Id. ¶ 38). The complaint alleges that American
Brokers Conduit did not legally exist as an entity in 2006
and has never been legally incorporated in any state. (Id.
¶¶ 4, 37). Accompanying the HUD-1A was a form prepared
by Chicago Title Insurance Company, apparently
explaining the title insurance policy that it was issuing to
American Brokers Conduit for the plaintiffs’ mortgage.
(Id. ¶ 42). The insurance form stated a commitment date
of November 20, 2006, and a loan amount of $450,000. (Id.).

25a
Appendix D
The loan closing took place on December 21, 2006. On
that day, the note was issued and a mortgage on plaintiffs’
property executed in order to secure payment of the note.
(Id. ¶¶ 49, 58, 61). The note issued to plaintiffs stated an
interest rate of 1.725%, but on January 1, 2007, the interest
rate allegedly jumped to 10.083%. (Id. ¶ 50). It appears
that an adjustable rate rider and a prepayment rider
accompanied the note. (Id. ¶ 65). The note also stated the
loan was a 40-year loan in the amount of $450,000. (Id.
¶¶ 51-52).
The mortgage stated a loan amount of $450,000,
payable to Mortgage Electronic Registration System,
Inc. (“MERS”), as nominee for American Bankers
Conduit. (Id. ¶ 61). According to the complaint, the MERS
identification number listed on the mortgage is associated
with American Home Mortgage Holding, Inc., and not with
American Brokers Conduit. (Id. ¶ 63). The mortgage was
recorded on February 7, 2007, in the Barnstable Registry
of Deeds by Fidelity Title Group. (Id. ¶ 61). According to
the complaint, plaintiffs’ signatures on the mortgage do
not match their signatures on the adjustable rate and
prepayment riders, and therefore their signatures were
forged. (Id. ¶ 65).
Plaintiffs began making payments on February
1, 2007. (Id. ¶ 56). The last payment they made was on
October 1, 2008. (Id.).
2.

The Assignments and Modification

On May 1, 2009, MERS, as nominee for American
Brokers Conduit, assigned the mortgage, but not the

26a
Appendix D
underlying note, to Deutsche Bank National Trust
Company as Trustee for American Home Mortgage Assets
Trust 2007-02. (Id. ¶ 71). The assignment was allegedly
backdated, stating that it was effective as of April 27, 2009.
(Id. ¶ 73). According to the complaint, that assignment
was void because American Brokers Conduit did not exist,
and therefore could not appoint MERS as its nominee,
and therefore MERS had nothing to assign. (Id. ¶ 75).
The complaint further alleges that the trust to which the
mortgage was transferred had “closed” in February 2007,
and therefore could not have accepted the assignment in
2009. (Id.). The assignment was prepared and recorded
by DOCX, a subsidiary of Fidelity Financial. (Id. ¶ 76).
The complaint alleges that six “illegal robo-signers,” all
MERS employees, executed the assignment. (Id. ¶ 78).
On July 7, 2010, MERS again assigned the mortgage
to Deutsche Bank as Trustee for the same trust. (Id.
¶ 82). According to the complaint, the second assignment
provided a new trust address, which was that of American
Home Mortgage Servicing, Inc. (“AHMSI”). Also according
to the complaint, the second assignment was intended to
correct defects in the first assignment. (Id. ¶ 85). However,
the complaint alleges that the second assignment was also
signed by “another known illegal robo-signer.” (Id. ¶ 85).
The complaint alleges that all defendants knew or should
have known that the assignments were fraudulent and
void. (Id. ¶ 87).
On May 15, 2012, plaintiffs received a letter from
AHMSI informing them of the availability of several
payment options. (Id. ¶ 129). That communication listed

27a
Appendix D
plaintiffs’ gross monthly income as $5,063.78, as compared
to the gross monthly income of $14,950.00 that was stated
on the loan application allegedly prepared by APEX. (Id.).
The complaint alleges that the inconsistency confirms that
APEX falsified information on the loan application. (Id.
¶ 131). According to the complaint, plaintiffs never agreed
to a modification of their payment obligations. (Id. ¶ 130).
3.

The Foreclosure Attempts

Plaintiffs stopped making payments on their mortgage
after October 1, 2008. (Id. ¶ 88). They received multiple
notices regarding their mortgage from AHMSI from
November 1, 2008, through June 5, 2012, when AHMSI
changed its name to Homeward Residential. (Id.).1 The
complaint alleges that AHMSI/Homeward Residential
knew that the issuer of the note—that is, American
Brokers Conduit—was a non-existent entity and that
therefore the note was void, yet continued to press for
payment. (Id. ¶ 89-90). Ocwen Financial Corporation
purchased Homeward Residential on October 3, 2012.
(Id. ¶ 92). According to the complaint, without inquiring
into the facts surrounding the plaintiffs’ mortgage, Ocwen
continued to harass them for payment on the loan. (Id.).
On September 28, 2009, Deutsche Bank filed a
complaint in the Superior Court of Massachusetts,
Barnstable County, seeking foreclosure on the property.
1. The complaint does not specify whether Homeward
Residential continued to send notices regarding payment after June
5, 2012.

28a
Appendix D
(Id. ¶ 94). 2 A notice of mortgagee’s sale of the property
was published on November 6, 2009. (Id. ¶ 95). However,
according to the complaint, nothing happened for more
than a year, until November 11, 2010, when Deutsche Bank
sent plaintiffs a notice of intention to foreclose and second
notice of mortgagee’s sale of the property. (Id. ¶¶ 101-02).
A sale by public auction was scheduled for December 17,
2010, but was later cancelled. (Id. ¶¶ 102-03).
Deutsche Bank allegedly issued a third notice of
foreclosure on July 14, 2011. (Id. ¶ 104). On September 1,
2011, plaintiffs then received another notice of foreclosure
sale and notice of mortgagee’s sale of the property,
stating that the property would be sold by public auction
on October 7, 2011. (Id. ¶ 105). Again, no sale ever took
place. (Id. ¶ 106).
On February 13, 2015, plaintiffs received a notice
from Ocwen of its intent to foreclose on the property on
behalf of Deutsche Bank. (Id. ¶ 115). On May 27, 2015,
plaintiffs’ attorney sent Ocwen a dispute of the alleged
debt and requested that, from that point forward, Ocwen
communicate only with plaintiffs’ attorney. (Id. ¶ 116). On
June 10, 2015, Ocwen sent, directly to plaintiffs, a notice of
default stating an amount past due of $223,611.23 on loan
number 7140304192. (Id. ¶ 117). That notice also stated
that Ocwen intended to foreclose on the mortgage unless
plaintiffs became current on their payments. (Id.). Ocwen
2. Deutsche Bank filed that complaint through its attorneys,
Ablitt & Scofield P.C. Plaintiffs originally named that firm as a
defendant in this action, but voluntarily moved to dismiss it on
October 11, 2016. That motion was granted on December 22, 2016.

29a
Appendix D
sent another notice to the same effect, also directly to
plaintiffs, on July 1, 2015. (Id. ¶ 118).
According to the complaint, Ocwen mailed plaintiffs
two letters on July 20, 2015. (Id. ¶¶ 119-20). The first stated
that Ocwen had received plaintiffs’ correspondence but
needed more time to respond. (Id. ¶ 119). The second stated
that it had received plaintiffs’ request to communicate
only through their attorney, but could not authorize their
attorney to receive information regarding the loan because
their signatures on the request did not match their
signatures on their loan documents. (Id. ¶ 120). Ocwen
mailed another letter to plaintiffs on September 4, 2015,
stating that it had received plaintiffs’ request but was
unable to provide a response. (Id. ¶ 121). It is unclear from
the complaint whether that third letter was referring to
plaintiffs’ letter disputing the debt or the letter requesting
to authorize their attorney to receive communications.
On January 28, 2016, plaintiffs received another letter
from Ocwen threatening litigation and foreclosure. (Id.
¶ 122). Plaintiffs responded by disputing the debt. (Id.
¶ 123).
It does not appear that a foreclosure of plaintiffs’
property has occurred, or that foreclosure proceedings
are imminent.
4.

Plaintiffs’ Attempted Rescission and
“Qualified Written Request”

On March 20, 2015, plaintiffs sent to all defendants
a rescission notice pursuant to the Truth in Lending

30a
Appendix D
Act (“TILA”). 3 The complaint alleges that, due to that
rescission notice, defendants were required to return to
plaintiffs any money they had paid towards the note. (Id.
¶ 142).
On July 30, 2015, plaintiffs sent a “Qualified Written
Request and Validation of Debt” letter to Ocwen. (Id.
¶ 132).4 In response, Ocwen sent plaintiffs two packages
of documents, one on September 11, 2015, and another on
September 30, 2015. (Id. ¶ 133). According to the complaint,
the documents sent were inadequate because they failed
to adequately document “the historical evolution of the
alleged debt.” (Id. ¶ 134).
B. Procedural History
Plaintiffs filed the original complaint in this action
on March 18, 2016, in Massachusetts state court.
3. TILA provides borrowers with the right to rescind mortgage
transactions, by notifying their creditors of their intent to do so,
until midnight of the third business day following closing or the
delivery of the information and rescission forms required by the
statute, whichever is later. 15 U.S.C. § 1635(a). The rescission period
may be extended if the borrower did not receive adequate notice of
the right to rescind, but, even if extended, that right “completely
extinguishes” after three years from the closing of the transaction.
Beach v. Ocwen Fed. Bank, 523 U.S. 410, 412, 118 S. Ct. 1408, 140
L. Ed. 2d 566 (1998); 15 U.S.C. § 1635(f).
4. Under the Real Estate Settlement Procedures Act
(“RESPA”), loan servicers are required to respond to “qualified
written requests,” which are written requests from borrowers
seeking information about their account or explaining their belief
that there is an error in their account. 12 U.S.C. § 2605(e).

31a
Appendix D
Defendants removed the action to this Court on May 17,
2016. Plaintiffs filed an amended complaint on June 22,
2016. The amended complaint alleges (1) a violation of
the Racketeer Influenced and Corrupt Organizations Act
(“RICO”), 18 U.S.C. § 1961 et seq., as to all defendants
(Count One); a claim that the statute of limitations to
collect on the note has expired (Count Two); a violation
of Mass. Gen. Laws ch. 93A as to all defendants (Count
Three); violations of the Fair Debt Collection Practices
Act (“FDCPA”), 15 U.S.C. § 1692 et seq., as to defendants
AHMSI, Deutsche Bank, Ocwen, and Homeward (Count
Four); violations of the Real Estate Settlement Procedures
Act (“RESPA”), 12 U.S.C. § 2601, as to defendants APEX,
American Brokers Conduit, AHMSI, Fidelity Financial,
Fidelity Title Company, and Fidelity Title Group (Count
Five); a violation of 18 U.S.C. § 1014, as to all defendants
(Count Six); violations of the Truth in Lending Act, 15
U.S.C. § 1601 et seq., as to defendants APEX, American
Brokers Conduit, AHMSI, Fidelity Financial, Fidelity
Title Company, and Fidelity Title Group, (Count Seven);
slander of title, as to all defendants (Count Eight); fraud,
as to all defendants (Count Nine); seeks a rescission of the
note and mortgage as well as to quiet title to the Mashpee
property (Count Ten); and asserts that no defendant has
standing to foreclose on the Mashpee property (Count
Eleven). 5

5. Count Four was originally also brought against the law
firm Ablitt & Scofield P.C. The complaint also asserted a claim for
the violation of the Professional Rules of Conduct against Ablitt &
Scofield. (Count Twelve). However, that firm was dismissed from
this action on December 22, 2016.

32a
Appendix D
On July 19, 2016, defendants A merican Home
Mor tgage Ser vicing, Deutsche Bank, Homeward
Residential, MERS, and Ocwen moved to dismiss for
failure to state a claim upon which relief can be granted.
On July 27, 2016, defendants Fidelity National Financial,
Fidelity National Title Insurance, and Fidelity National
Title Group likewise moved to dismiss for failure to
state a claim. On October 3, 2016, defendants American
Home Mortgage Servicing, Deutsche Bank, Homeward
Residential, MERS, and Ocwen moved to strike certain
documents attached to plaintiffs’ opposition memorandum.
II. Legal Standard
On a motion to dismiss, the Court “must assume the
truth of all well-plead[ed] facts and give plaintiff the
benefit of all reasonable inferences therefrom.” Ruiz v.
Bally Total Fitness Holding Corp., 496 F.3d 1, 5 (1st
Cir. 2007) (citing Rogan v. Menino, 175 F.3d 75, 77 (1st
Cir. 1999)). To survive a motion to dismiss, the complaint
must state a claim that is plausible on its face. Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167
L. Ed. 2d 929 (2007). That is, “[f]actual allegations must
be enough to raise a right to relief above the speculative
level . . . on the assumption that all the allegations in the
complaint are true (even if doubtful in fact).” Id. at 555
(citations omitted). “The plausibility standard is not akin
to a ‘probability requirement,’ but it asks for more than a
sheer possibility that a defendant has acted unlawfully.”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173
L. Ed. 2d 868 (2009) (quoting Twombly, 550 U.S. at 556).
Dismissal is appropriate if the facts as alleged do not

33a
Appendix D
“possess enough heft to show that plaintiff is entitled
to relief.” Ruiz Rivera v. Pfizer Pharms., LLC, 521 F.3d
76, 84 (1st Cir. 2008) (quotations and original alterations
omitted).
III. Analysis
A.

Defendants’ Motion to Strike

Defendants American Home Mortgage Servicing,
Inc.; Deutsche Bank National Trust Company; Homeward
Residential; Mortgage Electronic Registration Systems,
Inc.; and Ocwen Loan Servicing, LLC have moved to
strike a number of documents attached as exhibits to the
plaintiffs’ opposition to their motion to dismiss. Because
the Court did not rely on the disputed documents in
deciding defendants’ motion to dismiss, the motion to
strike will be denied as moot.
B. RICO Violations (Count One)
Count One alleges that all defendants violated the
RICO statute, 18 U.S.C. § 1962, by engaging in a series
of misrepresentations and omissions as part of a common
plan to defraud plaintiffs out of their money and property.
The limitations period for civil RICO claims is four years.
See Agency Holding Corp. v. Malley-Duff & Assocs., 483
U.S. 143, 156, 107 S. Ct. 2759, 97 L. Ed. 2d 121 (1987). A
civil RICO claim accrues at the time a plaintiff knew or
should have known of his injury. Lares Group, II v. Tobin,
221 F.3d 41, 44 (1st Cir. 2000).

34a
Appendix D
Plaintiffs allege a variety of issues arising out of their
2006 loan transaction. Among other things, they contend
that the loan application contained false information
(it both overstated their income and included fictitious
assets); that their signatures were forged on the mortgage,
the adjustable rate rider, and the prepayment rider;
that the various loan documents (the GFE, the TILA
disclosure statement, and the HUD-1A) were fraudulent
and set forth differing amounts as to the amount of the
loan and the interest rate; and that they were charged
a usurious interest rate. They contend that the lender
(American Bankers Conduit) did not exist at the time
(although plaintiffs did in fact receive $450,000 from the
lender, which appears to have been used to discharge
their existing mortgage). They contend that they did not
actually give a valid mortgage to MERS, because MERS
was purportedly the nominee for American Brokers
Conduit, and American Brokers Conduit did not exist. All
of those actions occurred on or about the date of the loan
closing, which was December 21, 2006.6
Furthermore, according to the complaint, the
harm suffered by plaintiffs as a result of the alleged
racketeering activity was the loss of “the valuable ability
6. Plaintiffs also allege that various entities who held an interest
in the loan at different times after the closing were fictitious, not
incorporated, or not licensed to do business in Massachusetts, and
that various assignments of interest were “robo-signed.” Even
assuming the truth of those allegations, it is entirely unclear how
any of that caused an injury in December 2006. Plaintiffs allege that
they received $450,000 (not a fictitious amount) and that they gave
a mortgage to MERS (not a fictitious entity).

35a
Appendix D
and opportunity to refinance their property with real
existing entities, a true identified creditor, on accurate
terms disclosed.” (Am. Compl. ¶ 162). That injury occurred
“immediately” upon the loan closing, again on December
21, 2006. (Id.) Thus, because plaintiffs knew or reasonably
should have known of their injury no later than December
21, 2006, the limitations period for their RICO claims
expired on December 21, 2010.
Furthermore, plaintiffs have not met their burden of
showing that the RICO limitations period should be tolled
or that defendants should be estopped from asserting
a limitations defense. Equitable estoppel and equitable
tolling are exceptions to the general rule that plaintiffs
must bring claims within the applicable limitations
periods. The two doctrines are related, but apply in
different contexts. “[E]quitable estoppel applies when
a plaintiff who knows of his cause of action reasonably
relies on the defendant’s conduct or statements in failing
to bring suit.” Ramirez-Carlo v. United States, 496 F.3d
41, 48 (1st Cir. 2007). “Equitable tolling applies when the
plaintiff is unaware of the facts underlying his cause of
action.” Id. Neither is applicable here.
Equitable estoppel may bar a defendant from asserting
the statute of limitations as an affirmative defense if the
plaintiff can show:
that the statements of the defendant lulled
the plaintiff into the false belief that it was
not necessary . . . to commence action within
the statutory period of limitations . . ., that

36a
Appendix D
the plaintiff was induced by these statements
to refrain from bringing suit, as otherwise
[the plaintiff ] would have done, and was
thereby harmed, and that the defendant knew
or had reasonable cause to know that such
consequences might follow.
Pagliarini v. Iannaco, 440 Mass. 1032, 1032, 800 N.E.2d
696 (2003) (alterations original) (internal quotation marks
omitted).
Plaintiffs contend that equitable estoppel is appropriate
here because of the defendants’ alleged fraudulent
concealment of the fact that the note and mortgage were
void. (Am. Compl. ¶¶ 166(b)). However, that collapses the
inquiry of equitable estoppel into plaintiffs’ substantive
fraud claim. The doctrine of equitable estoppel in this
context focuses not on whether defendants participated in a
fraud generally, but rather whether they made misleading
statements specifically regarding the necessity of bringing
a lawsuit within the statutory period. See Kozikowski v.
Toll Bros., Inc., 354 F.3d 16, 24 (1st Cir. 2003) (defining
first prong of equitable estoppel test as whether defendant
“made representations that it knew of should have known
would induce the [plaintiffs] to postpone bringing a suit”).
The complaint fails to allege any facts suggesting that the
defendants lulled the plaintiffs into thinking that they did
not need to file a lawsuit within the applicable statutory
periods. For example, the complaint does not allege that
defendants assured plaintiffs they would resolve any
conflict, eliminating the need for litigation, see id., nor
does it allege that defendants misrepresented the length

37a
Appendix D
of the applicable limitations period, see Glus v. Brooklyn
E. Dist. Terminal, 359 U.S. 231, 235, 79 S. Ct. 760, 3 L.
Ed. 2d 770 (1959). Plaintiffs have therefore not met their
burden of showing that the doctrine of equitable estoppel
applies.
Plaintiffs also seek equitable tolling of the limitations
period. “[T]he doctrine of equitable tolling is applicable
only where the prospective plaintiff did not have, and could
not have had with due diligence, the information essential
to bringing suit.” Protective Life Ins. Co. v. Sullivan, 425
Mass. 615, 631, 682 N.E.2d 624 (1997). The complaint
alleges two basic grounds for equitable tolling.
First, the complaint alleges that plaintiffs were
“unable to obtain vital information bearing on their
claims” because they were “not on inquiry notice of
Defendants[’] wrongdoing and had no duty to initiate
an investigation of any nature because the documents
presented to them by the Defendants appeared to be
legitimate.” (Am. Compl. ¶ 166(c)(i)). However, that claim is
implausible, and indeed entirely inconsistent with the facts
as alleged in the complaint. According to the complaint,
the documents plaintiffs received at closing contained
inconsistent information concerning (among other things)
the identity of the lender, the amount of the loan, and the
interest rate charged. (Id. ¶ 38). The complaint further
alleges that the interest rate on the loan jumped from
1.725% (the amount on the note, dated December 21,
2006) to 10.083% (as of January 1, 2007, eleven days later).
Plaintiffs were therefore on inquiry notice at that time
of defendants’ alleged wrongdoing with regard to the
circumstances of the loan and mortgage.

38a
Appendix D
Second, plaintiffs contend that even if they had
attempted to investigate, any “such investigation would
have been futile because it would not have uncovered the
true, unlawful nature of Defendants[’] scheme to defraud
Plaintiffs.” (Id. ¶ 166(c)(i)). But that allegation is entirely
conclusory. Plaintiffs do not allege that they attempted
to investigate and were thwarted, or even that they
attempted to investigate at all. Instead, it appears that
they simply waited nine years to file a complaint. Likewise,
plaintiffs contend that their claims were “tolled until
they discovered the truth underlying their claims shortly
before filing their original Complaint.” (Id.). However, the
complaint does not assert any facts suggesting that the
information necessary for plaintiffs’ suit was unavailable
prior to 2016, nor does it explain why the information
suddenly became available at that time.
The complaint therefore fails to make plausible
allegations as to why equitable tolling should apply. See
Abdallah v. Bain Capital LLC, 880 F. Supp. 2d 190, 198 (D.
Mass. 2012) (holding that equitable tolling is not justified
where plaintiff fails to provide facts demonstrating that
diligent inquiry would not have produced the necessary
information earlier). Thus, the RICO claims are timebarred.
C.

Expiration of Statute of Limitations to Collect
on Note (Count Two)

Count Two alleges that the limitations period to collect
on a “non-existent void fraudulent debt and void fraudulent
mortgage” has expired. (Am. Compl. ¶ 176). That count

39a
Appendix D
fails to assert a valid cause of action and will therefore
be dismissed.
D.

Chapter 93A Violations (Count Three)

The complaint alleges that all defendants violated
Mass. Gen. Laws ch. 93A by virtue of their participation
in an allegedly fraudulent issuance and assignment of the
note. However, plaintiff does not appear to have delivered
to any of the defendants the demand letter required by
Chapter 93A. At least 30 days prior to filing a claim under
Chapter 93A, a plaintiff is required to deliver “to any
prospective respondent” a demand letter “identifying the
claimant and reasonably describing the unfair or deceptive
act or practice relied upon and the injury suffered.” Mass.
Gen. Laws ch. 93A § 9(3). The complaint does not state
that plaintiffs sent demand letters to the defendants, and
therefore they may not now assert claims under Chapter
93A. See City of Boston v. Aetna Life Ins. Co., 399 Mass.
569, 574, 506 N.E.2d 106 (1987) (“The failure of the City
to allege the sending of a demand letter is fatal to its
[Chapter 93A] § 9 claim.”).
Even if plaintiffs had submitted the required demand
letters, however, their Chapter 93A claims would still be
barred under the applicable statute of limitations. Chapter
93A has a four-year limitations period. Mass. Gen. Laws
ch. 260, § 5A; see McDermott v. Marcus, Errico, Emmer
& Brooks, P.C., 775 F.3d 109, 124 n.16 (1st Cir. 2014). As
with RICO claims, Chapter 93A claims accrue “when the
plaintiff knew or should have known of appreciable harm”
resulting from the defendant’s alleged unfair or deceptive

40a
Appendix D
practice. International Mobiles Corp. v. Corroon &
Black/Fairfield & Ellis, Inc., 29 Mass. App. Ct. 215, 221,
560 N.E.2d 122 (1990). Plaintiffs’ Chapter 93A claims, as
with their RICO claims, are premised upon the allegedly
fraudulent nature of the transaction that occurred on
December 21, 2006. Thus, for the same reasons set
forth above, their Chapter 93A claims are barred by the
applicable statute of limitations.
Furthermore, plaintiffs have again failed establish
that the Chapter 93A limitations period should be tolled
or that defendants should be estopped from asserting a
limitations defense. As to equitable estoppel, plaintiffs
again contend that defendants should be estopped from
asserting a limitations defense on the grounds that
they concealed from plaintiffs the alleged defects in
their note and mortgage. (Am. Compl. ¶ 180(b)). For the
reasons stated above—that is, because the complaint
does not allege that defendants lulled them into thinking
that timely legal action was not necessary, or anything
similar—equitable estoppel is not appropriate here.
As to equitable tolling, plaintiffs repeat their
contentions that they were not on notice of defendants’
wrongdoing and that any timely investigation would have
been futile. (Am. Compl. ¶ 180(c)). Because those claims
are implausible and conclusory, the Chapter 93A claims
are time-barred.
E. FDCPA Violations (Count Four)
The complaint alleges that defendants AHMSI,
Deutsche Bank, Ocwen, and Homeward Residential

41a
Appendix D
violated the FDCPA by virtue of their attempts to collect
on an allegedly fraudulent and void note. The FDCPA has
a one-year limitations period. 15 U.S.C. § 1692k(d) (“An
action to enforce any liability created by this subchapter
may be brought . . . within one year from the date on which
the violation occurs.”).
According to the complaint, AHMSI began attempting
to collect on the note in October 2008. (Am. Compl. ¶ 88).
Deutsche Bank began foreclosure proceedings against the
property in September 2009. (Id. ¶ 94). AHMSI changed
its name to Homeward Residential in June 2012, and
continued attempting to collect on the note. (Id.). Ocwen
then purchased Homeward Residential in October 2012,
and continued attempting to collect on the note. (Id. ¶ 92).
According to the complaint, Ocwen informed plaintiffs’
of its intent to foreclose on their property, or otherwise
attempted to collect on the note, on February 13, 2015;
June 10, 2015; July 1, 2015; and January 28, 2016. (Id.
¶¶ 115, 117, 118, 122).
Plaintiffs filed this action on March 18, 2016. As to
defendants AHMSI, Deutsche Bank, and Homeward
Residential—who attempted to collect on the note in 2008,
2009, and 2012, respectively—the FDCPA’s one-year
limitations period has expired. Once again, plaintiffs have
failed to establish that equitable estoppel or equitable
tolling should apply. Plaintiffs again set forth the same
contentions that equitable estoppel is appropriate due to
defendants’ alleged concealment of defects in the mortgage
and note, and that equitable tolling is appropriate due to
the absence of inquiry notice and alleged futility of timely

42a
Appendix D
investigation. (Am. Compl. ¶ 189(b)-(c)). For the reasons
stated above, the complaint fails to allege a plausible basis
for equitable estoppel and equitable tolling.
Plaintiffs’ FDCPA claim appears, however, to be
timely as to Ocwen’s alleged conduct on June 10, 2015;
July 1, 2015; and January 28, 2016.7 To state a claim under
the FDCPA, plaintiffs must establish “(1) that [they were]
the object[s] of collection activity arising from consumer
debt, (2) defendants are debt collectors as defined by the
FDCPA, and (3) defendants engaged in an act or omission
prohibited by the FDCPA.” Rhodes v. Ocwen Loan
Servicing, LLC, 44 F. Supp. 3d 137, 141 (D. Mass. 2014)
(internal quotation marks omitted). It does not appear
to be disputed that prongs one and two are satisfied. As
to prong three, under § 1692e of the FDCPA, “[a] debt
collector may not use any false, deceptive, or misleading
representation or means in connection with the collection
of any debt,” including “[t]he false representation of
the character, amount, or legal status of any debt,” and
“[t]he threat to take any action that cannot legally be taken
or that is not intended to be taken.” 15 U.S.C. § 1692e(2)
(A), (5).
7. Defendants appear to contend that the limitations period on
any possible FDCPA claim against a particular defendant begins
to run the first time that defendant is alleged to have violated the
FDCPA. However, discrete FDCPA violations may be actionable
even where prior violations are time-barred. See, e.g., Solomon v.
HSBC Mortg. Corp., 395 Fed. Appx. 494, 497 (10th Cir. 2010) (“For
statute-of-limitations purposes, discrete violations of the FDCPA
should be analyzed on an individual basis.”) (unpublished opinion);
Purnell v. Arrow Fin. Servs., LLC, 303 Fed. Appx. 297, 301-02, 304
(6th Cir. 2008) (unpublished opinion).

43a
Appendix D
The complaint alleges that Ocwen sent plaintiffs
(1) a notice of default stating an amount past due of
$223,611.23 and directing plaintiffs to remit payment
within approximately five weeks (the June 10 letter); (2) a
letter notifying plaintiffs of its intent to foreclose on their
property, stating that it had the right to foreclose as it had
possession of the promissory note and that the chain of
endorsement is complete, and including a list of allegedly
“confusing” amounts owed (the July 1 letter); and (3) a
letter, sent through their counsel, allegedly “threatening
litigation and foreclosure” and giving plaintiffs 30 days
to respond (the January 28 letter). (Am. Compl. ¶¶ 117,
118, 122). Those allegations, taken in conjunction with the
rest of the complaint, are sufficient to survive a motion to
dismiss. Cf. Chiras v. Associated Credit Servs., 2012 U.S.
Dist. LEXIS 101614, 2012 WL 3025093 at *1 (holding that
complaint failed to state a claim for violation of FDCPA
where it was devoid of facts such as the dates and content
of allegedly unlawful communications).
F.

RESPA Violations (Count Five)

Count Five alleges RESPA violations against
defendants APEX, American Brokers Conduit, AHMSI,
Fidelity Financial, Fidelity Title Group, and Fidelity Title
Company on the ground that the disclosure statements
they provided were inadequate under the statute. (Am.
Compl. ¶ 193). The allegedly inadequate disclosures
specifically referred to in the complaint include the GFE,
the TIL disclosure, and the HUD-1A, all of which were
disclosed no later than December 21, 2006. Although it is
not clear from the complaint, it appears that the RESPA

44a
Appendix D
claim is brought under 12 U.S.C. § 2604(c), which requires
lenders to provide borrowers a “good faith estimate of
the amount or range or charges for specific settlement
services the borrower is likely to incur in connection with
the settlement” not later than three days after it receives
the borrower’s loan application. 12 U.S.C. § 2604(c) & (d). 8
However, that provision does not create a private right of
action for borrowers. See In re Noyes, 382 B. R. 561, 580
(Bankr. D. Mass. 2008).
To the extent that the complaint may be read to assert
a claim under § 2605, that claim is barred on its face by
the applicable statute of limitations. Among other things,
§ 2605 requires that mortgagees disclose, at the time of
a loan application, whether the servicing of the loan may
be assigned, sold, or transferred. 12 U.S.C. § 2605(a).
It also requires loan servicers to notify borrowers in
writing of any assignment, sale, or transfer. 12 U.S.C.
§ 2605(b)-(c).9 Claims brought under § 2605 are subject
8. The complaint alleges, for example, that the statements
plaintiffs received, including the GFE, the TIL disclosure, and the
HUD-1A, violated RESPA. (Am. Compl. ¶¶ 191, 193).
9. Section 2605 also requires loan servicers to respond to
“qualified written requests,” which are written requests from
borrowers seeking information about their account or explaining
their belief that there is an error in their account. 12 U.S.C. § 2605(e).
According to the complaint, plaintiffs did send a qualified written
request to Ocwen in July 2015. (Am. Compl. ¶ 132). The complaint
further alleges that Ocwen’s response was inadequate under RESPA.
(Am. Compl. ¶ 134). However, plaintiffs’ RESPA claim (Count Five) is
brought only against defendants APEX, American Brokers Conduit,
AHMSI, Fidelity Financial, Fidelity Title Company, and Fidelity
Title Group. There is no RESPA claim asserted against Ocwen.

45a
Appendix D
to a three-year limitations period. 12 U.S.C. § 2614.10 To
the extent the RESPA claim is premised on a failure to
provide the requisite disclosures regarding assignments,
that claim accrued on December 21, 2006. The complaint
focuses only on the disclosures that were or were not made
at the time of closing; it says nothing of disclosures or
notifications that were or were not made at the time that
any assignments were made. (Am. Compl. ¶¶ 191-197).
Thus, the limitations period under RESPA expired no
later than December 21, 2009, unless tolled.
Once again, plaintiffs have failed to establish that
equitable estoppel or equitable tolling should apply.
Plaintiffs again contend that equitable estoppel is
appropriate due to defendants’ alleged concealment of
defects in the mortgage and note, and that equitable
tolling is appropriate due to the absence of inquiry notice
and the alleged futility of a timely investigation. (Am.
Compl. ¶ 198 (b)-(c)). For the reasons stated above, those
claims are implausible and conclusory. Plaintiffs’ RESPA
claims are therefore time-barred.
G. Violations of 18 U.S.C. § 1014 (Count Six)
Count Six alleges that defendants APEX, American
Brokers Conduit, Fidelity Financial, Fidelity Title
10. RESPA provides for a shorter, one-year limitations period
for claims brought under sections 2607 and 2608, but those sections
do not appear to be implicated here. Section 2607 prohibits kickbacks
and unearned fees for real estate settlement services; section 2608
prohibits sellers of property from requiring that buyers purchase
title insurance from any particular title company. 12 U.S.C. §§ 2607,
2608.

46a
Appendix D
Company, and Fidelity Title Group violated 18 U.S.C.
§ 1014 by making false statements on plaintiffs’ loan
application and prepar ing a fraudulent HUD-1A
statement. (Am. Compl. ¶¶ 199-209). Section 1014 is a
criminal statute, and provides no private right of action.
See Federal Sav. & Loan Ins. Corp. v. Reeves, 816 F.2d 130,
137 (4th Cir. 1987). Count Six will therefore be dismissed.
H. TILA Violations (Count Seven)
Count Seven alleges that defendants APEX, American
Brokers Conduit, AHMSI, Fidelity Financial, Fidelity
Title Company, and Fidelity Title Group violated TILA,
15 U.S.C. § 1601 et seq., by (1) having American Brokers
Conduit—an allegedly non-existent “pretender lender”—
“table fund” the loan for an unidentified third party, (2)
making fraudulent representations about the plaintiffs’
income and assets on their loan application, and (3)
fraudulently procuring plaintiffs’ signatures on multiple
occasions. (Am. Compl. ¶¶ 213-217).11 Actions for damages
under TILA must be brought within one year from the
date of the alleged violation. See Rodrigues v. Members
Mortg. Co., 323 F. Supp. 2d 202, 210 (D. Mass. 2004) (citing
15 U.S.C. § 1640(e)). It appears that plaintiffs’ TILA
claims are premised on conduct that occurred at the time
of closing in December 2006. The limitations period for
those claims therefore expired no later than December
2007, unless tolled.
11. Although the complaint is not clear, it appears that the
alleged forgery concerned plaintiffs’ signatures on the adjustable
rate rider and prepayment rider that accompanied the mortgage.
(Am. Compl. ¶ 65).

47a
Appendix D
Once again, plaintiffs have failed to establish that
equitable estoppel or equitable tolling should apply, and
make only implausible and conclusory allegations in
support of those claims. (See Am. Compl. ¶ 222 (b)-(c)).
Plaintiffs’ TILA claims are therefore time-barred.
I.

Slander of Title (Count Eight)

Count Eight alleges a slander of title claim against all
defendants. It appears that this claim is premised on three
separate instances of alleged slander. First, according
to the complaint, plaintiffs’ title was slandered when
the allegedly void mortgage was recorded on February
7, 2007. (Am. Compl. ¶ 226). Second, according to the
complaint, their title was again slandered when the first
assignment of the mortgage was recorded on May 7, 2009.
(Id. ¶ 28). Third, according to the complaint, their title was
once again slandered when the second assignment of the
mortgage was recorded on July 18, 2011. (Id. ¶ 235). Under
Massachusetts law, the tort of slander of title is subject to
a three-year limitations period. See RFF Family P’ship,
LP v. Ross, 814 F.3d 520, 531 (1st Cir. 2016) (citing Mass.
Gen. Laws ch. 260, § 4). Therefore, even taking the date
of the most recent allegedly slanderous recording, the
limitations period expired no later than July 2014. Count
Eight is therefore time-barred, unless tolled.
Yet again, plaintiffs have failed to establish that
equitable estoppel or equitable tolling should apply.
Plaintiffs simply repeat their allegations as to those
issues, and again those allegations are implausible and
conclusory. Accordingly, plaintiffs’ claims for slander of
title are time-barred.

48a
Appendix D
J.

Fraud (Count Nine)

Count Nine alleges that defendants APEX, American
Brokers Conduit, Fidelity Title Company, Fidelity
Financial, Fidelity Title Group, and MERS fraudulently
concealed from plaintiffs the fact that American Brokers
Conduit was not an incorporated entity and was not
licensed to do business in any state. (Am. Compl. ¶ 254(a)(f)). The complaint also alleges that defendant Deutsche
Bank fraudulently concealed the fact that the trust to
which the mortgage was assigned was “closed” and
therefore could not accept the assignment. (Id. ¶ 254(g)).
It further alleges that AHMSI, Homeward, and Ocwen all
knew that the note was void yet concealed that fact from
plaintiffs and attempted to collect on the allegedly void
note. (Id. ¶ 254(h)).
It is unclear whether this is an independent fraud
claim or an argument in support of tolling the limitations
period applicable to plaintiffs’ other claims. Presumably,
plaintiffs are claiming, at least in part, that they were
fraudulently induced to enter into the loan transaction
on December 21, 2006. Any subsequent fraudulent
concealment would not appear to be independently
actionable, but might “toll[] the statute of limitations
[period] if ‘the wrongdoer . . . concealed the existence of
a cause of action through some affirmative act done with
intent to deceive.’” Harry v. Countrywide Home Loans
Inc., 2016 U.S. Dist. LEXIS 165132, 2016 WL 7013451 at
*5 (D. Mass. 2016) (quoting Abdallah, 752 F.3d at 119-20)

49a
Appendix D
(last alteration original).12 As has already been discussed,
plaintiffs were on inquiry notice as to the claim of fraud
at the time the loan closed, and tolling the applicable
limitations period is not appropriate in this case.
To the extent that the complaint asserts an independent
claim of fraud, that claim is facially time-barred. Under
Massachusetts law, the claims for fraud is subject to a
three-year limitations period. Stolzoff v. Waste Sys. Int’l,
Inc., 58 Mass. App. Ct. 747, 755, 792 N.E.2d 1031 (2003).
Fraud claims accrue “at the time a plaintiff learns or
reasonably should have learned of the misrepresentation.”
Kent v. Dupree, 13 Mass. App. Ct. 44, 47, 429 N.E.2d
1041 (1982). As to defendants APEX, American Brokers
Conduit, Fidelity Title Company, Fidelity Financial,
Fidelity Title Group, and MERS, the fraud claim is based
on their failure to disclose that American Brokers Conduit
was, allegedly, not an incorporated entity licensed to do
business. Plaintiffs were put on notice regarding the
identity of the lender at the December 21, 2006 closing. The
HUD-1A that plaintiffs received at closing on December
21, 2006, stated that American Brokers Conduit was the
lender. (Am. Compl. ¶ 36). However, according to the
complaint, the TIL disclosure statement they received
stated that APEX was the lender. (Id. ¶30). Plaintiffs were
therefore put on inquiry notice regarding the identity of
12. The plaintiffs in Harry v. Countrywide Home Loans Inc.
appear to be different from the plaintiffs in this action. However,
the same attorney represented the plaintiffs in that action, and the
dispute there involved a very similar mortgage dispute involving a
property in Mashpee, Massachusetts. It is unclear whether there is
any relationship between the plaintiffs in these two cases.

50a
Appendix D
their lender in December 2006. See Szymanski v. Boston
Mut. Life Ins. Co., 56 Mass. App. Ct. 367, 371, 778 N.E.2d
16 (2002) (stating that plaintiff may be put on inquiry
notice of claim when he is informed of facts that would
suggest to reasonably prudent person in his position
that he has been injured). Thus, plaintiffs’ fraud claims
against APEX, American Brokers Conduit, Fidelity
Title Company, Fidelity Financial, Fidelity Title Group,
and MERS expired no later than December 2009, unless
tolled.
The fraud claim against Deutsche Bank is premised
on the May 1, 2009 assignment to Deutsche Bank.
According to the complaint, it appears that documentation
concerning the trust to which the mortgage was assigned
was recorded in the Barnstable County Registry of Deeds
on May 7, 2009, and therefore publicly available at that
time. (Am. Compl. ¶ 76). In any event, the complaint does
not allege that the assignment to Deutsche Bank induced
plaintiffs to act, or to refrain from acting, in any material
way.
Finally, the fraud claims against AHMSI, Homeward,
and Ocwen are premised on their attempts to collect
on what they allegedly knew was a void note, while
failing to disclose that fact to plaintiffs.13 According to
13. The complaint does not appear to allege a fraud claim
against Deutsche Bank based on its foreclosure attempts. However,
to the extent that it does, those claims are time-barred. According
to the complaint, Deutsche Bank attempted to foreclose on plaintiffs’
property in satisfaction of their debt in 2009, 2010, and 2011. (Am.
Compl. ¶¶ 94-104). The three-year limitations period on any fraud
claim arising out of that conduct has therefore expired.

51a
Appendix D
the complaint, AHMSI attempted to collect on the note
from November 2008 through June 2012; Homeward
Residential attempted to collect on the note from June
2012 through October 2012; and Ocwen attempted to
collect on the note from February 2015 through January
2016. (Am. Compl. ¶¶ 88-92, 115, 117-18, 122). The threeyear limitations period has thus expired, unless tolled, as
to all defendants except Ocwen, and as with virtually all
claims in the complaint, plaintiffs have failed to allege a
plausible bases why equitable estoppel or equitable tolling
should apply. (See Am. Compl. ¶ 256 (b)-(c)).
The fraud claim against Ocwen, while timely, fails to
state a claim upon which relief can be granted. To state
a claim for fraud, the complaint must allege: “(1) a false
representation of material fact, (2) with knowledge of
its falsity, (3) for the purpose of inducing the plaintiffs
to act on this representation, (4) that the plaintiffs
reasonably relied on the representation as true, and (5)
that they acted upon it to their damage.” Commonwealth
v. Lucas, 472 Mass. 387, 394, 34 N.E.3d 1242 (2015)
(internal quotation marks omitted).14 Pursuant to Fed.
14. It appears plaintiff’s fraud claim is based on a failure to
disclose rather than a direct misrepresentation. The complaint
alleges that Ocwen “chose to try and elicit money from the Plaintiffs
knowing that all of the paperwork for the alleged void note and void
alleged mortgage and assignments were fraudulent and didn’t exist”
and “hid this fact from the Plaintiffs.” (Am. Cmpl. ¶ 254(h)). A failure
to disclose may constitute a misrepresentation where the defendant
has a preexisting duty to disclose certain information, see Greenery
Rehab. Group, Inc. v. Antaramian, 36 Mass. App. Ct. 73, 77-78, 628
N.E.2d 1291 (1994), or where disclosure is necessary to correct what
would otherwise be a materially misleading statement, see Nei v.

52a
Appendix D
R. Civ. P. 9(b), allegations of fraud must be pleaded with
particularity. See Hayduk v. Lanna, 775 F.2d 441, 443
(1st Cir. 1985). Even assuming that the complaint alleged
a false representation made with the requisite knowledge
and intent with sufficient particularity to satisfy the
heightened pleading requirements of Rule 9(b), it does
not allege the kind of reliance and damage that can give
rise to a fraud claim. See Sovereign Bank v. Sturgis, 863
F. Supp. 2d. 75, 85-86 (D. Mass. 2012) (dismissing fraud
claim for, among other things, failure to allege detriment).
The complaint alleges that plaintiffs suffered injuries in
the form of multiple foreclosure attempts, a reduction in
their credit rating, and Karen’s hospitalization due the
stress of the threatened foreclosure. (Am. Compl. ¶ 254).
The complaint does not, however, allege that plaintiffs
acted in any way in detrimental reliance on Ocwen’s
alleged misrepresentation. It appears that plaintiffs
simply continued to live in their home without making
any mortgage payments. Furthermore, plaintiffs’ alleged
injuries appear to result from their own failure, since
2008, to make payments on their mortgage, not from any
actions they took (or failed to take) in reliance on Ocwen’s
representations about its intent to foreclose.

Boston Survey Consultants, Inc., 388 Mass. 320, 322-23, 446 N.E.2d
681 (1983). For the purposes of deciding this motion to dismiss, the
Court will assume that Ocwen’s statement of its intent to foreclose
could constitute a materially misleading statement—if, as plaintiffs
allege, it did in fact know that it did not have the legal authority to
foreclose—such that a duty to disclose the alleged defects in the note
and mortgage was triggered.

53a
Appendix D
K. Rescission and Quiet Title (Count Ten)
In Count Ten, plaintiffs seek to exercise a right of
rescission under TILA. TILA provides borrowers with
the right to rescind mortgage transactions until midnight
of the third business day following closing or the delivery
of the information and rescission forms required by
the statute, whichever is later. 15 U.S.C. § 1635(a). The
rescission period may be extended if the borrower did not
receive adequate notice of the right to rescind; however,
even if extended, that right “completely extinguishes”
after three years from the closing of the transaction.
Beach v. Ocwen Fed. Bank, 523 U.S. 410, 412, 118 S. Ct.
1408, 140 L. Ed. 2d 566 (1998); 15 U.S.C. § 1635(f). In order
to exercise their right to rescind, borrowers must notify
their creditor of their intent to do so. 15 U.S.C. § 1635(a).
According to the complaint, plaintiffs mailed their
TILA rescission notice to all defendants on March 20,
2015. However, because their mortgage transaction
closed on December 21, 2006, their right to rescind had
“completely extinguishe[d]” no later than December 21,
2009. Beach, 523 U.S. at 412. Count Ten is therefore
time-barred unless tolled, and again the complaint does
not allege a plausible basis for the application of equitable
estoppel or equitable tolling. (See Am. Compl. ¶ 271 (b)(c)). Count Ten will therefore be dismissed.
L.

Absence of Standing to Foreclose (Count
Eleven)

Count Eleven alleges that none of the defendants have
standing to collect money from plaintiffs or foreclose on

54a
Appendix D
their property because the documents associated with
their mortgage are all invalid. (Am. Compl. ¶ 273). Because
that count does not assert any independent cause of action,
it will be dismissed.
IV. Conclusion
For the foregoing reasons:
A. Defendants American Home Mortgage
Servicing, Inc., Deutsche Bank National
Trust Company, Homeward Residential,
Mortgage Electronic Registration Systems,
Inc., and Ocwen Loan Servicing, LLC’s
motion to dismiss (Docket No. 53) is
GRANTED in part and DENIED in part.
All claims against those defendants are
dismissed for failure to state a claim upon
which relief can be granted except for the
claim in Count Four as to defendant Ocwen
Loan Servicing, LLC.
B. Defendants Fidelity National Financial,
Inc., Fidelity National Title Insurance
Company, and Fidelity National Title Group,
Inc.’s motion to dismiss (Docket No. 57) is
GRANTED.
C. Defendants American Home Mortgage
Servicing, Inc., Deutsche Bank National
Trust Company, Homeward Residential,
Mortgage Electronic Registration Systems,

55a
Appendix D
Inc., and Ocwen Loan Servicing, LLC’s
motion to strike (Docket No. 89) is DENIED
as moot.
So Ordered.

Dated: January 12, 2017

/s/ F. Dennis Saylor
F. Dennis Saylor IV
United States District Judge

56a
AppendixOF
E REHEARING OF
APPENDIX E — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FIRST CIRCUIT, FILED APRIL 25, 2019
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 18-1829
TIMOTHY C. HARRY; KAREN C. HARRY,
Plaintiffs-Appellants,
v.
AMERICAN BROKERS CONDUIT; APEX
MORTGAGE SERVICES; FIDELITY NATIONAL
TITLE GROUP, INC.; AMERICAN HOME
MORTGAGE SERVICING, INC.; DEUTSCHE BANK
NATIONAL TRUST COMPANY, AS TRUSTEE FOR
AMERICAN HOME MORTGAGE ASSETS TRUST
2007-2 MORTGAGE-BACKED PASS-THROUGH
CERTIFICATES, SERIES 2007-2; HOMEWARD
RESIDENTIAL, INC.; MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC.; OCWEN
LOAN SERVICING, LLC; FIDELITY NATIONAL
FINANCIAL, INC.; FIDELITY NATIONAL
TITLE COMPANY,
Defendants-Appellees,
- and KORDE & ASSOCIATES, P.C.; ABLITT &
CHARLTON, P.C,
Defendants.

57a
Appendix E
Before
Howard, Chief Judge,
Souter,* Associate Justice,
Torruella, Lynch, Thompson,
Kayatta and Barron, Circuit Judges.
ORDER OF COURT
Entered: April 25, 2019
Pursuant to First Circuit Internal Operating
Procedure X(C), the petition for rehearing en banc has
also been treated as a petition for rehearing before the
original panel. The petition for rehearing having been
denied by the panel of judges who decided the case, and
the petition for rehearing en banc having been submitted
to the active judges of this court and a majority of the
judges not having voted that the case be heard en banc,
it is ordered that the petition for rehearing and petition
for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk

* Hon. David H. Souter, Associate Justice (Ret.) of the Supreme
Court of the United States, sitting by designation.

58a
Appendix
F
APPENDIX
F — RELEVANT
STATUTORY PROVISIONS
15 U.S.C. 1692 FAIR DEBT COLLECTION
PRACTICES ACT
A debt collector may not use any false, deceptive, or
misleading representation or means in connection with
the collection of any debt. Without limiting the general
application of the foregoing, the following conduct is a
violation of this section:
15 U.S.C. 1692 (a) & (e)
(a) Abusive practices. There is abundant evidence
of the use of abusive, deceptive, and unfair debt
collection practices by many debt collectors.
Abusive debt collection practices contribute to
the number of personal bankruptcies, to marital
instability, to the loss of jobs, and to invasions of
individual privacy.
(e) Purposes. It is the purpose of this subchapter to
eliminate abusive debt collection practices by debt
collectors, to unsure that those debt collectors
who refrain from using abusive debt collection
practices are not competitively disadvantaged,
and to promote consistent State action to protect
consumers against debt collection abuses.
15 U.S.C. 1692(e) (1) The false representation or implication
that the debt collector is vouched for, bonded by, or
affiliated with the United States or any State, including
the use of any badge, uniform, or facsimile thereof.

59a
Appendix F
(2) The false representation of -(A) the character, amount, or legal status of any debt;
(5) The threat to take any action that cannot legally be
taken or that is not intended to be taken.
(10) The use of any false representation or deceptive
means to collect or attempt to collect any debt or to obtain
information concerning a consumer.
15 U.S.C. 1692(f) A debt collector may not use unfair
or unconscionable means to collect or attempt to collect
any debt. Without limiting the general application of
the foregoing, the following conduct is a violation of this
section:
(1) The collection of any amount (including any
interest, fee, charge, or expense incidental to
the principal obligation) unless such amount is
expressly authorized by the agreement creating
the debt or permitted by law.

60a
Appendix F
MASSACHUSETTS GENERAL LAWS
CHAPTER 255E
M.G.L. Chapter 255E entitled Licensing of Certain
Mortgage Lenders and Brokers, Section 1 defines
Mortgage Broker to be “any person who for compensation
or gain, or in the expectation of compensation or gain,
directly or indirectly negotiates, places, assists in
placement, finds or offers to negotiate, place, assist in
placement or find mortgage loans on residential property
for others.” M.G.L. Chapter 255E, Section 1 defines a
Mortgage Lender as “any person engaged in the business
of making mortgage loans, or issuing commitments for
mortgage loans. M.G.L. Chapter 255E, Section 1 defines
Mortgage loan as “a loan to a natural person made
primarily for personal, family or household purposes
secured wholly or partially by a mortgage on residential
property. M.G.L. Chapter 255E, Section 1 defines Multistate licensing system as “a system involving 1 or more
states, the District of Columbia or the commonwealth of
Puerto Rico for the sharing of regulatory information and
the licensing and application processes, by electronic or
other means, for mortgage lenders and mortgage brokers.
M.G.L. Chapter 255E, Section 2 states that “No person
shall act as a mortgage broker or mortgage lender with
respect to residential property unless first obtaining a
license from the commissioner….” Section 2 does provide
for some exceptions, none of which apply to this case.

61a
Appendix F
MASSACHUSETTS GENERAL LAWS
CHAPTER 255F
M.G.L. Chapter 255F Section 1 defines Mortgage
loan originator as “a person who for compensation or
gain or in the expectation of compensation or gain: (i)
takes a residential mortgage loan application; or (ii)
offers or negotiates terms of a residential mortgage loan.”
M.G.L. Chapter 255F Section 1 defines Loan processor
or underwriter as “an individual who performs clerical
or support duties as an employee at the direction of and
subject to the supervision and instruction of a person
licensed, or exempt from licensing under this chapter….
That said person shall not represent to the public…..
that such individual is licensed or otherwise authorized
by law to perform any of the activities of a mortgage
loan originator.” M.G.L. Chapter 255F Section 1 defines
nationwide mortgage licensing system and registry, as
“a mortgage licensing system developed and maintained
by the Conference of State Bank Supervisors and the
American Association of Residential Mortgage Regulators
for the licensing and registration of licensed mortgage
loan originators.” M.G.L. Chapter 255F Section 1 defines
Unique identifier, as “a number or other identifier
assigned by protocols established by the Nationwide
Mortgage Licensing System and Registry.” (hereinafter
“NMLSR”) M.G.L.

